<html>
<title> - NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITY IN NORTH AND SOUTH AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                   
                         [H.A.S.C. No. 116-78]
 
                      NATIONAL SECURITY CHALLENGES

                     AND U.S. MILITARY ACTIVITY IN

                        NORTH AND SOUTH AMERICA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 11, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-979                        WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Chidi Blyden, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                          Emma Morrison, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     2

                               WITNESSES

Faller, ADM Craig S., USN, Commander, U.S. Southern Command......     7
O'Shaughnessy, Gen Terrence J., USAF, Commander, U.S. Northern 
  Command........................................................     5
Rapuano, Hon. Kenneth P., Assistant Secretary of Defense for 
  Homeland Security and Global Security, Department of Defense...     3

                                APPENDIX

Prepared Statements:

    Faller, ADM Craig S..........................................   104
    O'Shaughnessy, Gen Terrence J................................    73
    Rapuano, Hon. Kenneth P......................................    56
    Smith, Hon. Adam.............................................    53

Documents Submitted for the Record:

    [The information is retained in the committee files and can 
      be viewed upon request.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................   125
    Mr. Waltz....................................................   125

Questions Submitted by Members Post Hearing:

    Dr. Abraham..................................................   132
    Mr. Golden...................................................   133
    Mrs. Hartzler................................................   131
    Mr. Lamborn..................................................   130
    Mr. Langevin.................................................   129
    Mr. Larsen...................................................   129
    Mr. Scott....................................................   131
    Mr. Vela.....................................................   132
    Mr. Waltz....................................................   133
 
 
 NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITY IN NORTH AND 
                             SOUTH AMERICA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 11, 2020.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2322, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. We will call the meeting to order, a full 
committee hearing this morning on the national security 
challenges and U.S. military activity in North and South 
America, part of our ongoing series for this year to get ready 
for the FY21 [fiscal year 2021] budget cycle, basing this off 
of the budget that the President submitted for FY21.
    Our witnesses this morning are the Honorable Kenneth 
Rapuano, Assistant Secretary of Defense for Homeland Defense 
and Global Security; Admiral Craig C. Faller, who is the 
commander of the U.S. Southern Command; and General Terrence 
O'Shaughnessy, who is the commander of the U.S. Northern 
Command. Thank you, gentlemen, for being here this morning.
    We have discussed a number of the issues surrounding the 
overall defense budget, and I think that is the thing we are 
most interested in, is how your piece fits into that. We have 
got the blank slate review, which is an attempt to sort of look 
at everything within DOD [Department of Defense] and build out 
a strategy based on what is to come, based primarily on the 
premise that we are still kind of stuck in the past a little 
bit in terms of where we are spending our money, where our 
priorities are, and we need to shift those priorities.
    Now, as always, when you are shifting priorities, it is 
very easy to focus on what the new priorities should be. The 
harder part is figuring out what you are going to do less of, 
to balance that out. And we want to see how that strategy 
builds together. I understand that the blank slate review for 
your two commands I think is not yet done at any rate. So, we 
are curious what you see in that, what you would say, ``Here is 
what we need to do more; here is what we need to do less.'' How 
can we balance that out?
    Obviously, on the NORTHCOM [U.S. Northern Command] side, 
homeland security is the number one priority. So, we are also 
particularly curious how you work with the Department of 
Homeland Security, what your responsibilities are, what their 
responsibilities are, how those things balance out.
    And there is considerable concern on the committee about 
the reprogramming request that most impacts these two commands, 
that took $3.8 billion out of existing procurement to put it 
into further building the wall on the southern border. We are 
very concerned about how those priorities were set and the 
impact that it might have on the programs that were cut going 
forward.
    And it is worth noting, also, that there is still to come 
$3.6 billion which is supposed to be taken out of MILCON 
[military construction]. That is in addition to the $3.6 
billion that was taken last year. The impact that that is going 
to have is profound. So, we are concerned about that.
    We would also be interested in various troop deployments to 
the southern border. We know that, typically, these are 
requests from DHS [Department of Homeland Security] that are 
supposed to be reimbursed. They have not been being reimbursed. 
Where do you see those requests going and do you see you 
getting paid back for that? How do we balance the money on all 
of those issues?
    And also, when it comes to homeland security, we are 
concerned about election interference, not just from Russia, 
but from a variety of different countries. As we head towards 
2020, that is going to be a major concern. What are you doing 
to prepare for that?
    And then, most importantly, overarching all of this is the 
coronavirus outbreak that is going to have a huge impact on 
every community. If you watched the press conference yesterday, 
I think the smartest thing said is, if it hasn't impacted you 
yet, it will. Being from the State of Washington, it started 
there first, but it is by no means done. We have seen it spread 
quickly to New York, yesterday a major problem in 
Massachusetts. If you understand the epidemiology of this at 
all, it is going to put an enormous amount of pressure on our 
country.
    Now, primarily, that is not the responsibility of DOD, but, 
certainly, from a NORTHCOM perspective, we want to know what 
you could potentially do to contribute to meeting that threat. 
And from a SOUTHCOM [U.S. Southern Command] perspective, 
eventually, in all likelihood, it will be a factor in Latin 
America as well, and how it impacts that.
    So, there are many challenges. I have them laid out in a 
more detailed way in my opening statement, which I will submit 
for the record.
    With that, I will turn it over to the ranking member, Mr. 
Thornberry, for his opening statement.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 53.]

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    And let me join in welcoming all of our witnesses here 
today.
    Like the other combatant commands, these two have a lot on 
their plate, and it is absolutely part of our responsibility to 
understand their budgetary needs and capabilities to meet their 
responsibilities. I am struck by the fact, though, that with 
these two commands, as with others, extraneous events also get 
a vote. And so, in SOUTHCOM you have got to watch and deal with 
what happens in Venezuela. With NORTHCOM, as you mentioned, 
what is the military support for coronavirus, not only now, but 
how may that develop in the future? That is part of, I think, 
the specific challenging part of putting together a military 
budget. It is the other side, whatever the other side is, gets 
a vote.
    And I appreciate the challenges that both of these 
commanders have with a whole variety of issues and will look 
forward to their answers to our questions.
    I yield back.
    The Chairman. Thank you.
    Mr. Rapuano, assuming you are going first, go ahead.

 STATEMENT OF HON. KENNETH P. RAPUANO, ASSISTANT SECRETARY OF 
 DEFENSE FOR HOMELAND SECURITY AND GLOBAL SECURITY, DEPARTMENT 
                           OF DEFENSE

    Secretary Rapuano. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, thank you 
for the opportunity to testify today on the national security 
challenges faced by the United States and the Department of 
Defense actions to meet these challenges.
    I am honored to be here in the company of General 
O'Shaughnessy, the commander of NORAD [North American Aerospace 
Defense Command] and U.S. Northern Command, and Admiral Faller, 
the commander of the U.S. Southern Command.
    I am the principal civilian policy advisor to the Secretary 
of Defense and the Under Secretary of Defense for Policy on a 
diverse range of issues, including homeland defense, cyber, 
space, countering weapons of mass destruction, mission 
assurance, and defense support to civil authorities.
    I would like to emphasize three key points today.
    The first is that the U.S. homeland is not a sanctuary. 
Rather, the homeland is a target in a complex global security 
environment.
    Two, China and Russia are using malign influence against 
the United States and our neighbors to undermine regional 
security.
    And lastly, we have taken action to ensure our Nation and 
partners will prevail in this security environment.
    China and Russia are seeking capabilities to win below the 
threshold of armed conflict, to erode our national security and 
prosperity. They are attempting to undermine democratic 
governance, the rule of law, market-driven economies, and 
compliance with international rules and norms. Our competitors' 
capabilities, strategies, and actions underscore that we must 
anticipate multidimensional attacks on land, in the air, at 
sea, in space, and in cyberspace, targeted not just against our 
military forces, but against our critical infrastructure and 
our population; indeed, our way of life at home and abroad.
    Should conflict arise, China and Russia hope to prevent the 
U.S. from intervening in the defense of our allies and 
partners. China's arsenal includes anti-satellite capabilities 
and advanced missile systems. China has also successfully 
tested hypersonic glide vehicles and claimed or created and 
militarized islands in the South China Sea in its efforts to 
coerce the U.S. and our allies and partners. Although Russia 
poses a different challenge, it, too, is developing anti-
satellite capabilities, advanced missile hypersonic glide 
vehicles, and advanced cyber capabilities.
    Rogue regimes, such as North Korea, Iran, and Venezuela, 
continue to pose threats to the United States and our allies 
and partners. Iran is investing significant resources on 
ballistic missile and space launch capabilities which could 
lead to the development of ICBM [intercontinental ballistic 
missile] systems. With support from Russia, Cuba, and China, 
the Maduro regime fails to provide Venezuelans with sufficient 
food and medicine. In response, most governments in the region 
have recognized Interim President Juan Guaido as the legitimate 
leader of Venezuela.
    Despite our successes, terrorists, transnational criminal 
organizations, cyber hackers, and other malicious, non-state 
actors threaten us with increasingly sophisticated 
capabilities. We are countering threats to our Nation and our 
regional partners. Our actions will deny adversary benefits 
from aggression; impose costs on adversaries, should they 
commit acts of aggression against the United States and our 
strategic interests.
    These efforts in our sustained regional engagement 
undermine our competitors' attempts to increase their influence 
near U.S. borders.
    The U.S. is strengthening its homeland missile defenses. 
DOD is developing a new interceptor to meet future threats. We 
are developing a new generation of advanced ground- and space-
based sensors to better detect, track, and discriminate enemy 
missile warheads. These capabilities will enhance our ability 
to deny our adversaries benefits from missile attack.
    Space systems underpin virtually every U.S. weapons system. 
China and Russia both seek to deny the U.S. and our allies and 
partners the advantages of space. The U.S. is responding to 
this threat by transforming our space enterprise and working 
closely with our allies and partners.
    The President's budget request provides $18 billion for 
space programs, including $111 million to support the 
establishment of the new military service. The budget also 
funds the new space combatant command, the U.S. Space Command, 
and the Space Development Agency, which will accelerate and 
develop the fielding of military space systems.
    New Presidential policy on cyberspace operations, as well 
as statutory authority, have enabled the proactive approach to 
competition in cyberspace. For example, Cyber Command engages 
in ``hunt forward'' operations, defensive cyber teams operating 
globally at the invitation of our allies and partners.
    Working closely with our partners, and informed by the 
whole-of-nation approach, similar to those framed by the 
Cyberspace Solarium Commission report issued today, we are 
maturing our concept of layered cyber deterrence.
    The Department is focused on preventing WMD [weapons of 
mass destruction] proliferation globally and ensuring U.S. 
military forces are prepared to respond to WMD incidents and 
operate in contaminated environments.
    We are working with our Federal partners and with other 
public and private sector partners to expand sharing of threat 
information that affects defense critical infrastructure and 
the defense industrial base.
    DOD is better prepared to assist civil authorities than at 
any other time in our Nation's history. In 2019, DOD responded 
to 113 requests for assistance. So far in 2020, DOD has 
responded to 20 requests for assistance.
    While the Department's number one priority is defense of 
the homeland, we are also enhancing the security of our allies 
and partners in the Western Hemisphere through several primary 
lines of effort.
    Working with partners to limit malign influence. The 
authoritarian model offered by China and Russia uses economic, 
diplomatic, and security means to gain undue influence over the 
sovereign decisions of others. We are working with our allies 
and partners to counter this threat.
    Collaboration with our partners. We are advancing defense 
relationships with our self-funding partners while continuing 
support for our traditional training and equip programs, 
focusing on strategic-level cooperation.
    Sustaining defense cooperation through institution-
building. Our defense institution-building is an increasingly 
important aspect of our efforts. We seek to share experiences 
and help and implement processes that magnify the effectiveness 
and sustainability of all other aspects of our cooperation.
    The Department of Defense takes a global view of the 
challenges facing the Nation. We continue to improve our 
ability to defend the U.S. homeland in all domains and develop 
capabilities to defend the Nation's interests globally.
    I appreciate the critical role Congress plays in ensuring 
the Department is prepared to compete, deter, and win in every 
contested domain--air, land, space, and cyberspace.
    I especially thank the men and women of the Department of 
Defense and their families for all that they do every day to 
keep our Nation safe and secure.
    Thank you.
    [The prepared statement of Secretary Rapuano can be found 
in the Appendix on page 56.]
    The Chairman. Thank you.
    General O'Shaughnessy.

 STATEMENT OF GEN TERRENCE J. O'SHAUGHNESSY, USAF, COMMANDER, 
                     U.S. NORTHERN COMMAND

    General O'Shaughnessy. Chairman Smith, Ranking Member 
Thornberry, and distinguished members of the committee, I am 
truly honored to be here today as the commander of U.S. 
Northern Command and North American Aerospace Defense Command.
    I am also pleased to testify alongside my cousin, Admiral 
Craig Faller, and Mr. Rapuano, both of whom I have great 
admiration for.
    Chairman Smith, with your concurrence, I would like to 
submit my written statement for the record.
    USNORTHCOM and NORAD are charged with executing the 
National Defense Strategy's number one objective: defend the 
homeland. Our adversaries have watched, learned, and invested 
to offset our strengths while exploiting our weaknesses. They 
have demonstrated patterns of behavior that indicate their 
capability, capacity, and intent to hold our homeland at risk 
below the nuclear threshold.
    The changing security environment makes it clear that the 
Arctic is no longer a fortress wall and the oceans are no 
longer protective moats. They are now avenues of approach to 
the homeland, which highlights the increase in adversary 
presence in the Arctic.
    To meet this challenge, we need to invest in a capable, 
persistent defense that can deter adversaries, protect critical 
infrastructure, enable power projection forward, and prevent 
homeland vulnerabilities from being exploited. To deter, 
detect, and defeat the threats arrayed against the homeland 
today, USNORTHCOM and NORAD are transforming our commands and 
our way of thinking. We cannot defend the Nation against 21st 
century threats with 20th century technology. We must be able 
to outpace our adversaries using a layered defense infused with 
the latest technology.
    To do so, and to secure our competitive advantage, we will 
continue to partner with our Nation's defense and commercial 
industry to transform rapidly evolving scientific information 
into leading-edge, digital-age technology. And the Strategic 
Homeland Integrated Ecosystem for Layered Defense, or what we 
call SHIELD, is the architecture we need to defend our homeland 
against these advancing threats.
    As such, our layered defense needs to establish awareness 
in all domains, from below the oceans to the highest levels of 
space, including the unseen cyber domain, which are all at 
risk. We need a layered sensing grid with sensors in all 
domains which can detect and track threats from their point of 
origin long before approaching our sovereign territory. In 
other words, it requires the ability to identify and eliminate 
the archers before the arrows are released. We need an adaptive 
architecture for joint all-domain command and control, capable 
of fusing a myriad of sensors across the globe into accurate, 
decision-quality threat information, and at the speed of 
relevance for effective command and control. The Department of 
Defense, with the United States Air Force in the lead, is using 
the 2021 budget to further this capability of joint all-domain 
command and control.
    And lastly, we need the ability to deploy defeat mechanisms 
capable of neutralizing advanced weapon systems in order to 
defend our great homeland. We have put great effort into these 
areas, such as ballistic missile defense, and the need also 
exists to aggressively defeat additional threats, to include 
the ever-growing cyber threat and the cruise missile threat.
    And consistent with these concepts, we are changing how we 
are engaging with industry. We have shared our toughest 
challenges with our industry partners and have received an 
overwhelming response from not only traditional defense 
contractors, but also small and large commercial companies, to 
leverage the military application of advancements we have seen 
in the commercial industry.
    We are harnessing emerging, existing, and rapidly evolving 
technology to plug into our SHIELD, our architecture for 
homeland defense. However, more needs to be done to keep pace 
with the advancing threats to our homeland. We need to ensure 
we have complete awareness of what is happening in and around 
our sovereign territory.
    We are mindful of the gravity of our mission and the trust 
you have placed in us. Aligned with the National Defense 
Strategy, and capturing our sense of urgency, we at USNORTHCOM 
and NORAD have declared 2020 as a year of homeland defense and 
are moving forward with the implementation of our SHIELD.
    You and the committee should have great faith in the men 
and women at USNORTHCOM and NORAD because, together, we have 
the watch. Thank you for your support, and I look forward to 
your questions.
    [The prepared statement of General O'Shaughnessy can be 
found in the Appendix on page 73.]

STATEMENT OF ADM CRAIG S. FALLER, USN, COMMANDER, U.S. SOUTHERN 
                            COMMAND

    Admiral Faller. Chairman Smith, Ranking Member Thornberry, 
distinguished members, thank you for the opportunity to testify 
today.
    I am honored to be here with Secretary Rapuano and my 
friend, shipmate, and cousin, General O'Shaughnessy. We work 
very closely together to defend the homeland and ensure there 
are no seams between our regions, because we certainly know the 
bad guys don't pay attention to seams. Last year, General 
O'Shaughnessy and I traveled to Mexico City and Guatemala City 
to make that very point to our friends and neighbors.
    I am joined by Ambassador Jean Manes, former U.S. 
Ambassador to El Salvador, and my civilian deputy, who brings 
with her a wealth of knowledge about our region and a deep 
understanding of China in our hemisphere.
    The Western Hemisphere is our shared home. It's our 
neighborhood. We are connected to the nations here in every 
domain--sea, air, land, space, cyber--and most importantly, 
with our values. Over the last year, I have seen firsthand the 
opportunities and the challenges that impact the security of 
our hemisphere, and we also understand the urgency with which 
we must react to those challenges.
    I have come to describe the challenges of a vicious circle 
of threats that deliberately erode the stability and security 
in the region and our homeland, vicious circles framed by 
systemic issues that face young democracies, like weak 
institutions, corruption, that are exploited by transnational 
criminal organizations, a $90-billion-a-year industry in this 
hemisphere.
    These institutions are often better funded than the 
security organizations they face. And external state actors 
that don't share our values--China, Russia, and Iran--and 
violent extremist organizations exploit this. They are trying 
to advance their own ends at the expense of U.S. and partner 
nation security.
    In fact, the ``aha'' moment for me this past year has been 
the extent to which China is aggressively pursuing their 
interests right here in our neighborhood. Why would China 
invest in critical infrastructure, like deepwater ports and 
large swaths of coastline, within a 2-hour flight from Miami? 
Why would China want to lock up total interest in a space 
station in this hemisphere? They certainly recognize the 
importance of this part of the world, and so must we.
    This vicious circle I described can be seen most acutely in 
the tragedy that is Venezuela. Human suffering in this once 
thriving democracy has driven nearly 5 million people to flee 
to neighboring countries, like Colombia, Peru, Ecuador, Brazil, 
Argentina, Chile, and more. These countries are absorbing the 
migrants and the strain that is placed on their health care, 
education, and security services. Colombia alone has spent over 
$2.5 billion in the last 2 years to support migrants.
    And while Russia, Cuba, and China prop up the illegitimate 
Maduro dictatorship, the democracies of the world are looking 
for a way to get the Venezuelan people what they deserve, a 
free and prosperous Venezuela.
    The best way to attack this vicious circle is as a team, 
the NORTHCOM/SOUTHCOM team, our interagency team, our whole-of-
nation team, and with our partners. In this neighborhood, a 
little goes a long way, and our partners are willing to 
contribute, especially with U.S. encouragement, investment, and 
presence.
    In recognition of the complex threats challenging our 
neighborhood, there will be an increase in U.S. military 
presence in the hemisphere later this year. This will include 
an enhanced presence of ships, aircraft, and security forces to 
reassure our partners, improve U.S. and partner readiness and 
interoperability, and counter a range of threats, to include 
illicit narcoterrorism.
    Last year, our partners played a critical role in 50 
percent of our drug interdictions, up from 40 percent the year 
before. Getting our partners in the game by training and 
equipping them through security cooperation programs is exactly 
the right approach. These threats affect all of us here in our 
neighborhood, and we must tackle them together.
    Likewise, International Military Education and Training, 
IMET, is a small investment that yields long-term returns. It 
builds lasting trusted relationships. As I speak, half our 
region's chiefs of defense are graduates of IMET. Along with 
exercises--exercises are our North Star--IMET exercises and 
security cooperation are the last programs we should consider 
cutting.
    Deployments like the United States Naval Ship Comfort show 
the best outstretched hand of America. The mission this year 
treated nearly 68,000 patients, extending our enduring promise 
as a trusted partner to the neighborhood.
    Thanks to the support of this committee, we also deployed a 
Multi-Mission Support Vessel, acronym MMSV, a contracted 
innovative ship that is supporting counterdrug detection and 
supporting our partners as a platform for their extended reach. 
The MMSV is using intelligence produced by Joint Interagency 
Task Force South, JIATF South. JIATF South, located in Key 
West, our southernmost base in the continental United States, 
is of strategic and significant value for defending a wide 
range of threats to our national security, and we are working 
to take steps to improve the resiliency and the quality of life 
there in one of the highest-cost regions in the Nation. At our 
headquarters in Miami, we are also working to address the cost 
of living and housing concerns that create hardships for our 
families.
    Mr. Chairman, Ranking Member Thornberry, thank you for the 
opportunity today. The SOUTHCOM team appreciates the support of 
Congress and the trust you place in us. I look forward to the 
questions.
    [The prepared statement of Admiral Faller can be found in 
the Appendix on page 104.]
    The Chairman. Thank you very much. I just have two 
questions.
    Admiral Faller, can you give us an update on Venezuela? You 
know, how are China and Russia potentially involved? What are 
our interests there? And how is it impacting the region?
    Admiral Faller. The Maduro regime continues to cling to 
power and brutalize the population. The Human Rights Report 
this year listed a significant number of human rights abuses by 
the Maduro regime.
    Maduro stays in power because of the thousands of Cubans 
that protect and guard him and, basically, own the intelligence 
service in Venezuela; Russia, in the numbers of hundreds right 
in there alongside, working to upgrade air defense systems; 
Russian special forces working to train Maduro forces. And 
China to a lesser extent, but China is involved, particularly 
in some of the cyber areas, working to their interest. 
Unfortunately, this has allowed Maduro to cling to power and 
continue to brutalize the population.
    The narcotraffickers have taken advantage of this, as well 
as the ELN [National Liberation Army] and FARC [Revolutionary 
Armed Forces of Colombia] dissident terrorists, and that 
instability, along with the migrants, has spawned instability 
out in the regions. It is a credit to partners like Colombia 
that they have handled it so well.
    The Chairman. And that is not going to change anytime soon? 
Maduro is pretty solidly in power at this point, would be your 
estimation?
    Admiral Faller. Maduro is isolated and continues to be 
isolated. The international unity is there. We are continuing 
to work with Special Representative Elliott Abrams and the 
State Department for the pressure campaign. Unfortunately, this 
transition can't happen soon enough for the brutalized 
population.
    The Chairman. Thank you.
    General O'Shaughnessy, could you tell us what your missile 
defense needs are here for your command, where it is at, what 
your needs are in the short term?
    General O'Shaughnessy. Thank you, Chairman, for the 
opportunity to highlight some of the work that we are doing and 
some of the work that we need support in doing.
    First, on the ballistic missile front, we have had some 
success now on Next Generation Interceptor [NGI]. Obviously, we 
would rather not be where we are relative to the RKV, 
Redesigned Kill Vehicle, but now that we are, we made a 
decision to stop that program, start NGI. I am happy to report, 
just yesterday, we had the Joint Requirements Oversight Council 
that successfully met to talk about how do we actually bring 
this capability to bear sooner. One of the things we have to 
make sure that we understand is the threat continues to 
advance. And so, while we may have delays in our program, the 
threat doesn't stop.
    And so, as a result of the great work we have done with MDA 
[Missile Defense Agency], to include the work with R&E [Under 
Secretary of Defense for Research and Engineering], and the 
ability to actually figure out what is the capability that we 
most need, and how can we bring it to bear at the speed of 
relevance, and I think we have had some success there. Part of 
that is because we're working with industry to understand what 
are the long poles in the tent, what are the most challenging 
things that are driving a long-time acquisition program, and 
what are the things we can do for the trade space, where time 
is now a factor of risk, so that we can bring that into the 
discussion. I am happy to report we have made progress on that 
front and we are going to be able to bring this capability to 
bear sooner. I look forward to the RFP [request for proposal] 
ultimately being released and ultimately getting this 
capability.
    In the meantime, Chairman, it is also important we continue 
to pursue other means, to include an under-layer, critically 
important as we have our GBIs [Ground-Based Interceptors], 
which is a very capable system right now. We bring an under-
layer such as bringing in SM-3 IIAs, which we are going to do a 
test in May to ensure that it can defeat an ICBM threat. That 
brings tremendous capability and opportunity and potential to 
what we can bring to the homeland. Also looking at THAAD 
[Terminal High Altitude Area Defense] and how can we use THAAD 
for the protection of the homeland in ways that we haven't yet 
done.
    The combination of all those together with the work we are 
doing on our sensors, our radars, to bring the discrimination 
capability forward, is going to allow us to maintain that 
advantage over our adversaries. So I can come to this committee 
and continue to tell you that we can defend against the 
ballistic missile threats from a rogue nation.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Admiral, yesterday we had CENTCOM [U.S. 
Central Command] and AFRICOM [U.S. Africa Command] before us. 
And one of the points I think everybody agreed on is great 
power competition occurs all over the world, including Africa, 
the Middle East. You pointed out China is very active in the 
Southern Hemisphere, but you also made the point that cutting 
IMET and those sorts of training, exercises, providing military 
equipment, doesn't seem to make much sense. That is my 
interpretation. Can you give us just a scale of how much money 
you spend in your AOR [area of responsibility] on things like 
exercises and joint training, and that sort of thing? And then, 
what happens from last year to this year?
    Admiral Faller. The programs you mentioned, IMET, the 
education program, the exercise program, security cooperation, 
are our pivotal programs. They are key. They are high-return 
investment options.
    As we look at those programs, the IMET accounts have been 
solid, with good support to increase IMET. And so, we have 
asked for an increase. We may see a modest increase. Eleven 
million is what we spent last year. That is making a 
difference.
    The exercise program and the security cooperation, they 
have received cuts in the defense-wide review across the 
Department. The Joint Exercise Program received a 10 percent 
reduction, and the security cooperation, our main Department of 
Defense-funded program, which is called 333, received 
approximately a 20 percent reduction that is being distributed 
amongst the combatant commands. For me, the impact over this 
coming year will be at or around a 20 percent reduction in our 
333 money. And that reduction will mean we will have to make 
some choices and have to defund some programs. Those programs 
that we will defund are likely ones that have made an impact 
that have increased our partners' ability to do things like 
counternarcotics.
    Mr. Thornberry. You mentioned IMET as $11 million. What is 
a ballpark for putting all of those programs together in your 
AOR, ballpark?
    Admiral Faller. A ballpark for our needs in those three 
programs is probably around $130 million per year, if you total 
it.
    Mr. Thornberry. Okay. I think it is helpful for us just to 
have a perspective on that.
    General, some coronavirus folks are being housed at 
military bases. My understanding is some folks coming off this 
latest cruise ship, about 500 may go to Texas, 500 to Georgia, 
or something like that. Explain to us how you, or the 
Department, balances effect on military readiness and the 
health and safety of our military folks versus the need to have 
some isolation for people who are coming off cruise ships or 
maybe in other circumstances. How do you know when it hurts our 
military more than it should? How do you balance that, is what 
I am trying to get to.
    General O'Shaughnessy. Sir, thank you for allowing me to 
highlight this. Let me, first, acknowledge that we are, in 
fact, housing some U.S. citizens as a result of the passenger 
ship challenge that we are faced with. To me, this needs to be 
a whole-of-nation response. And so, the Department of Defense 
is contributing to that whole-of-nation response to take care 
of our citizens.
    Specifically, the guidance we were given from the Secretary 
of Defense was the first priority is to ensure the safety of 
our military personnel and their families. The second priority 
we were given was to ensure that we maintain our readiness, our 
ability to perform our core mission set, because, of course, 
that can't be degraded. And then, with that in mind, we look at 
what can we add to the whole-of-nation response.
    And the particulars that you mentioned here, we do have 
folks right now at Travis, at Miramar, at Lackland, and at 
Dobbins. That is actually billeting rooms that we provided. HHS 
[Department of Health and Human Services] has been providing 
the actual, what we call wraparound, services to that. In other 
words, we are not providing the medical capability. We are not 
providing some of those contract services. They are actually 
being provided by HHS. What that allows us to do is we can 
provide them the rooms. We can maintain our ability to take 
care of our own families and our own military members and do 
the mission that we need to do. And I think it is a good 
balance of where we are right now. We can contribute, but no 
degradation to our ability to perform our mission, sir.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Rapuano and General O'Shaughnessy, I gave you a heads-
up on this question, but I wanted to get it for the record. We 
had a call last night with our Governor in the State regarding 
the COVID-19 response in our State and the continuing need for 
help. But the question he had, and that I wanted to pass on and 
get some direction on this, would be the ability or necessity 
of NORTHCOM duty to support response if we need a surge 
capacity for mobile hospital units. We are not making that 
request now, but in the event that we need to make that 
request, where does NORTHCOM fit into that role?
    Secretary Rapuano. So, the Department of Defense is working 
the whole-of-government process. managed by the President's 
White House Task Force that is led by the Vice President, 
working very closely with CDC [Centers for Disease Control and 
Prevention], HHS, DHS, and the other agencies involved. CDC and 
HHS, they are the lead for the domestic response. They are also 
the lead for the medical response. There is very significant 
capacity that is available to them, working with the State and 
locals as well. DHS and FEMA [Federal Emergency Management 
Agency] also have some levels of capability.
    The Department of Defense, for the force that we have, has 
relatively limited medical capacity, particularly with regard 
to the importance of force health protection for the force and 
their dependents and our other beneficiaries, but also the 
potential of contingency operations requiring additional 
medical capabilities on top of that.
    So, we are very cognizant of that balance. When you look at 
the low-density, high-value elements, such as ICU [intensive 
care unit] beds and ventilators, the Department of Defense dose 
not have a large number of those. That is not typically 
military medicine type of capabilities. So, there is not a 
surplus of capability there. Again, we are working very closely 
with CDC and HHS in terms of where we can best support and how 
we can limit the impact on defense readiness and capabilities.
    Mr. Larsen. All right. That is fair enough. We will 
probably follow up with you later on. Again, we are trying to 
do our best to prepare, and we are in contact with the CDC and 
HHS as well. But our emergency operations center is active at 
Camp Murray in our State as well. So, our local National Guard 
folks are helping out.
    Secretary Rapuano, I have a question. I am also chair of 
the Aviation Subcommittee. It has been a priority for me that 
the Department, any department or agency with counter-UAS 
[unmanned aircraft systems] authority works hand-in-glove with 
the FAA [Federal Aviation Administration] in implementing its 
authority before deployment of counter-UAS technology at any 
location. So, since we gave the DOD some authorities the last 
couple of years on counter-UAS, what specific factors do you 
take into account before deploying counter-UAS equipment at any 
given location, given the use of civilian airspace in order to 
implement and operate counter-UAS?
    Secretary Rapuano. Absolutely. I will give you an overview, 
and then hand it over to General O'Shaughnessy.
    Mr. Larsen. You have got a minute and 41 seconds.
    Secretary Rapuano. Okay. We work very closely with FAA. We 
do have authorities for counter-UAS domestically. Those 
authorities are limited in terms of we have to take into 
account undue risk to civil aviation, other activities that are 
not threatening to DOD facilities. So, that is a process that 
is ongoing.
    And again, I will just in the limited time turn to General 
O'Shaughnessy to provide some additional steps.
    Mr. Larsen. Great. Thanks.
    General O'Shaughnessy. Sir, we have a very robust 
relationship with the FAA. Steve Dickson and I have met on 
multiple occasions to talk about these very issues, and our 
staffs work on an almost daily basis with this, as well as with 
the Department of Homeland Security, who plays an equally 
critical role within this.
    I would highlight, though, we do have different 
perspectives. In some ways, the FAA is concerned about that 
compliant operator, right, and the safety of flight of that 
compliant operator, where we are more worried about the non-
compliant operators and how do we separate the non-compliant 
and potential threat from those that are doing things in 
accordance with the FAA rules.
    And so, as we continue to work our way forward, this is a 
threat that we really have to find the right balance between 
safety for those to be able to operate and commercial 
businesses, and whatnot, that want to expand the use of UASes, 
while still at the same time maintaining our ability to defend 
our critical installations as well as the national critical 
infrastructure.
    I think that partnership is right. I think the authorities 
are right. I think we, from an investment standpoint, need to 
also look at those things that will allow both. And some of the 
systems we employ overseas aren't quite as useful here at home, 
when we have to have the continual operation of airfields, to 
include the commercial ones, while being able to defend. So, we 
need to invest continued within the commercial industry.
    Mr. Larsen. Great. I will have some followup questions 
later, but thank you. I am going to yield back. Thanks.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And, Mr. Secretary and Admiral, you both in your opening 
statements and in your written statements reference China and 
Russia and their activities in South America. Mr. Secretary, 
you even talked of maligned influence. What tools do you see 
that you have in the DOD portfolio, or what other things do we 
need to be doing, to increase our influence in the area? Do we 
still have a competitive advantage? Are there areas where we 
are not competing that we should? What are you seeing and what 
advice would you give us?
    Admiral Faller. Thank you for that important question. We 
still have the competitive advantage, but that advantage is 
eroding. Our competitive advantage remains in our education 
system. Our partners want to educate with us. China has seen 
that. A recent example, they offer 5-to-1. So, if we are 
offering one slot to Carlisle, they have come in behind us to 
offer five to their version of Carlisle. Some of our partners 
are taking them up on it. It seems to be a nice vacation. But 
we are quality. So, we will take our quality any day.
    Our partners want to exercise with us. Our partners want to 
do exchanges with us. And our partners want to be able to 
afford our gear. Our equipment is the best, built in America. 
Unfortunately, some of our partners have financial issues. 
China has figured that out. They have come in and started 
gifting large sums of gear, trucks, boats to partners.
    In a recent conversation with a chief of defense in a small 
Caribbean nation, he gets around to it and he says, ``Yes, they 
only gave me 20 million last year.'' And I looked at my cheat 
sheet, and it was about $1 million across all our assistance in 
a mil-to-mil. We don't need to outspend China. We just need to 
have enough and be present to continue that leverage and that 
access, presence, and influence that we can bring as reliable, 
trusted partners.
    Secretary Rapuano. So, I would just amplify Admiral 
Faller's points. We have unique differentiators as the United 
States in our alliance system. We, unlike the Chinese or the 
Russians, have a very robust system of allies and partners. We 
don't have to spend them dollar for dollar, but we do need to 
be resourcing these relationships and developing them in a 
manner that makes clear where the benefits are and over the 
long term what is in the best interest of these nations.
    And it is very difficult sometimes when you look at the 
immediate laydown of what resources the Chinese are offering 
with maybe long-term payout in some areas. But it is 
increasingly, if you just review the inputs that are coming out 
from around the world, it is increasingly understood by nations 
that this is a predatory policy, particularly the Chinese 
approach, in terms of the loss leader upfront and, then, the 
dependence on systems for which they do not have the same 
control.
    So, again, this is just how we can most thoughtfully apply 
not the same amount of resources, but increased resources to 
address this important challenge.
    Mr. Turner. General, you and I had the opportunity to talk 
yesterday of the huge investment that we are going to be 
undertaking. As we look to the national defense authorization 
this year, we have areas of space that we have to invest in, 
sensors, missile defense. Even our nuclear deterrent is one 
that is going to require significant investment.
    You and I talked about your successors. If we don't make 
these investments, tell us what your concerns would be for your 
successors 10 years from now if we falter and don't modernize 
and invest in our systems.
    General O'Shaughnessy. Thank you for that opportunity to 
highlight these very important issues relative to our ability 
to defend our homeland. I will start with our ballistic missile 
defense. We have a good program in place. We have a good plan 
in place. I think if we are able to execute that program as we 
have it designed with the under-layer, I think we will continue 
to maintain that competitive advantage, both capacity and 
capability, to defend our Nation against a rogue nation, 
whether that be a future development of capability in Iran or 
the current North Korean threat that we face.
    I think we often, though, have to think about the peer 
competitors that we have, Russia and China. As we look at their 
actions and their activities, and what they are investing in, 
we want to make sure we are able to stay ahead of them relative 
to our ability to defend our homeland. And it is not so much 
that we expect, for example, the Russians to be--that you will 
wake up in the morning and find that they are invading the 
United States of America. That is not what we are saying.
    But there could be a regional crisis, for example, in 
Europe, that, then, based on the nature of the capability that 
they have, could very quickly expand to a global fight. And so, 
as we see that, we could very well find ourselves where they 
are trying to hold us at risk, whether it be with cruise 
missiles, whether it be with cyber, whether it be the myriad of 
capability that they have and they have been investing in.
    And so, I think we have to look at this with clear eyes.
    The Chairman. I am sorry, I should have said this upfront. 
When we get to the end, I try to stop it. So, if you can just 
wrap up quickly, General O'Shaughnessy?
    General O'Shaughnessy. Yes, sir.
    We need to invest to maintain that competitive advantage in 
order to maintain our ability to defend ourselves against all 
threats and all demands.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Rapuano, General O'Shaughnessy, and Admiral Faller, 
thank you all for being here and your service to the country.
    Obviously, you all face unique challenges across the 
diplomatic, information, military, and obviously economic 
domains. And the Arctic, among one of them, has rapidly become 
a battleground and a great power competition that we talked 
about here today. Climate change is obviously already 
exacerbating the challenges, as we see increasing hostilities 
and more navigable waterways. My question is, General 
O'Shaughnessy, do you agree that climate change is an 
aggregating factor in your theater?
    General O'Shaughnessy. Sir, what we are seeing is 
diminished ice, increased usability of some of the waterways. 
We see increased activity. We see some of the impacts of the 
result of that; for example, some erosion. And those are all 
things that we have to take into account.
    From my particular point of view, what I am most concerned 
with is, as we do see our potential adversaries increasing 
their capability and capacity to take advantage of some of 
these more navigable waters, we also need to be able to operate 
in that environment. And so, I have a renewed invigoration to 
make sure that we are able to operate in that Arctic 
environment.
    Mr. Langevin. So, my question is, how is NORTHCOM factoring 
the implications for changing climate dynamics in its military 
planning?
    General O'Shaughnessy. So, specifically, what we are doing 
is maintaining our ability to operate, looking at all facets of 
it, whether it is our infrastructure, and make sure that we 
don't have impacts to our infrastructure as a result of any 
changes that we see. But, also, again, because we see more 
activity there, because of the environmental impacts that we 
are seeing, we also have to make sure we have the ability to 
operate there, that we have invested in things like 
communication, domain awareness, and infrastructure that will 
withstand those changes.
    Mr. Langevin. Thank you.
    Admiral Faller, anything that you have to add? Mr. Rapuano?
    Admiral Faller. The ability to rapidly respond to events, 
whether it is a weather event or an environmental event, a 
terrorist attack, transnational criminal organizations, is 
important. So, we continue to watch that closely and ensure 
that our exercise programs, our security cooperation programs, 
emphasize the partners' capacity to do that. Because, as we see 
in some of these massive hurricanes, no one nation has the 
ability to do it alone.
    Mr. Langevin. Okay. Thank you, Admiral.
    Mr. Rapuano, I want to, first of all, thank you, on another 
topic, for all the work that you have done in the Solarium 
Commission over the past year. I was very proud to be a part of 
that commission as well, chaired by Senator King and 
Representative Gallagher, and I am very proud of the final 
product that is being released today.
    One of the major recommendations that we make in the report 
is strengthening CISA [Cybersecurity and Infrastructure 
Security Agency] at Homeland Security to ensure that it has the 
authorities and resources that it needs to perform its civil 
defense mission. So, Secretary Rapuano, do you agree with the 
Solarium Commission that we need to strengthen CISA? And can 
you explain why the Department of Defense needs a strong 
partner at the Department of Homeland Security to protect the 
Nation in cyberspace?
    And the last one, another key recommendation is the 
importance of exercising. Secretary Rapuano--and, General 
O'Shaughnessy, feel free to chime in, of course--can you detail 
how the Department leads or participates in national-level 
exercises to better prepare us to act in situations where DOD 
assets are called on to support civil authorities?
    Secretary Rapuano. First, thank you very much for the 
question, Congressman Langevin.
    The Solarium Commission was a very fruitful and productive 
exercise, from our perspective, in the very frank, deliberate, 
in-depth discussions associated with the evolving, growing 
cyber threat. And I think one of the most critical outcomes 
from it was just strong coalescence, stronger, empathic 
understanding of the whole-of-government, whole-of-nation 
context which we must rely on to be able to respond to growing 
cyber threats.
    Mr. Langevin. Could you comment on CISA, in particular?
    Secretary Rapuano. I'm sorry?
    Mr. Langevin. And comment on CISA.
    Secretary Rapuano. Specifically to CISA, CISA is the lead 
for DHS, which is the lead Federal agency for responding and 
providing support to industry critical infrastructure. CISA, of 
course, needs to be resourced to perform that role. And we 
understand, with the growing threat, there will be growing 
needs in terms of the resources required to effectively perform 
that mission. And we are very supportive of CISA being provided 
the appropriate resources to do that.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And thank you all for being here and for your service to 
our country.
    General O'Shaughnessy, in the President's budget the Hawaii 
and Pacific radars were canceled. My first question is, why? My 
second question is, what kind of gaps does this create in 
coverage? And my third question is, what are you going to do if 
the SBX [Sea-based X-band Radar] does not see when a threat 
arises?
    General O'Shaughnessy. Sir, just for clarification, though, 
we view that as being postponed versus canceled. It is still a 
priority for us. There were some concerns relative to the 
executability of the funding, as our SECDEF [Secretary of 
Defense] has commented about. I will say, from my perspective, 
it is, with the SBX, we have the ability today to defend all of 
our defended area, to include Hawaii. What we would like to 
see, though, is this continue to be looked at to see how it 
fits into the overall system and our ability to execute that 
mission, to your point, with the SBX being, obviously, an at-
sea platform and the risk inherently involved in that.
    With respect to our vantage point, clearly, we see PACOM 
[U.S. Indo-Pacific Command] has put it in as one of their 
unfunded priorities, and we certainly applaud that. They also 
have regional considerations besides the broader GBI execution 
from the regional missile defense.
    Mr. Rogers. For example?
    General O'Shaughnessy. For example, as they look at the 
capability they have with the other radars, the TPY-2s, what 
they have at Guam, threats that they have in the shorter range 
threat, not necessarily ICBMs, that this would contribute to as 
well, beyond the NORTHCOM role in that specific mission set.
    Mr. Rogers. Thank you.
    General, in your testimony you say, quote, ``In order to 
reclaim our strategic advantage in the high north, it's 
critical that we improve our ability to take and track surface 
vessels and the aircraft in our Arctic approaches and establish 
more reliable secure communications for our Joint Force 
warfighters operating in the higher latitudes.'' Closed quote.
    What specific capabilities would you like to see us develop 
to counter the increasing threats from China and Russia? And is 
there something, in particular, they are working on together 
that concerns you?
    General O'Shaughnessy. There is, sir. First, let me start, 
we have to start with domain awareness. We have to understand 
what is operating in the approaches to our sovereign airspace 
and territory as well as within the confines of our sovereign 
territory.
    We saw just yesterday--you may have seen in the news--we 
had a Russian bomber 60 miles off the coast of Alaska, 
operating in one of our ICEX [Ice Exercise] exercises we have 
where our submarines actually pop up out of the ice. The camp 
established that they were loitering about 2,500 feet above 
that. And mind you, they were loitering with an F-22 and F-18 
on their wing when they did that.
    So, we have to maintain the ability to be able to react 
appropriately, not just for a strategic messaging-type event 
here, but potentially in the future to actually defeat any 
threats. It starts with domain awareness, and then you need the 
ability to command and control. In the command and control, you 
have to be able to communicate. We have severe limitations to 
communicate in the Arctic. Above about 65 degrees [latitude], 
it becomes limited. Above about 70, it becomes severely 
limited, except for our more exquisite capabilities.
    I think one of the things we can leverage is the commercial 
technology that is out there. We see the proliferation of LEO 
[low Earth orbit], whether it be a company such as OneWeb or 
Starlink. We see amazing technology that is going to bring 
literally broadband connectivity, the same that you would have 
in your home right now, you could actually establish within the 
Arctic very quickly, in a matter of literally a year or so. To 
me, that would actually fast-forward our ability to operate 
within that very difficult, challenging battlespace, having the 
ability to communicate. And so, we have as our number one 
unfunded priority list Arctic communications to leverage the 
commercial work and the proliferation of LEO that I think would 
be a game changer, not only for the military, but also for the 
civilian communities.
    Mr. Rogers. Great. Thank you very much.
    Admiral, in your testimony you talk about South America's 
strategic location for space activity and how China is pursuing 
that. Can you give us some examples of what you mean by that?
    Admiral Faller. The one space station that China has 
virtual control over is what allowed China to land on the dark 
side of the moon.
    Mr. Rogers. Is that the one in Argentina?
    Admiral Faller. Yes, sir. And that is an example. And so, 
China sees this, as does Russia, and they are working to get 
their inroads into that area. Fortunately, we are pushing with 
countries, good partners like Brazil, to increase our access 
and our cooperation in space. And I think there are some real 
opportunities there with some of the agreements we have signed 
with Brazil over the last year, including this past Sunday we 
signed a research development agreement with Brazil, that was 
put together quite rapidly for types of agreements, that will 
allow a broad range of technology and defense cooperation that 
could be included into space.
    Mr. Rogers. Yes. It is a very important point I hope the 
committee takes note of, that China and Russia are both making 
great efforts to get toeholds in South and Central America, and 
we can't just ignore that.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    General, Admiral, Secretary, thank you for being here.
    I want to talk a little bit more about the Arctic. I 
happened to be up at ICEX this weekend and we all waved to the 
Russians as they flew over. I just thought they were there to 
see me, but apparently not.
    We often talk about the threat from Russia. Can you also 
talk about the recent activities from China and what they are 
doing, and how or why we should be concerned?
    General O'Shaughnessy. Yes, sir. Thank you again for 
allowing me to highlight one of my most pressing concerns. It 
is really the Arctic and our ability to operate there and what 
we see our adversaries doing.
    Specifically to the China question, we see activity, for 
example, the Xue Long, which is one of their scientific 
vessels, that is probably the preliminary work they are doing 
to bring up military capability and capacity to operate in the 
Arctic. We see that China declared themselves as a near-Arctic 
state. We see the economic investment that they are doing and 
that we have seen in other areas of the world where that course 
of economics has a very nefarious intent behind it.
    Mr. Norcross. But where specifically? If you could just 
point out the other nations that are investing in it?
    General O'Shaughnessy. Well, obviously, Russia. We see 
amazing activity on the Russian side, both in their 
installations that they are rapidly improving as well as just 
their ability to operate in that environment with a very robust 
presence in exercises and training. And I think, from our 
vantage point, we also need to ensure we have the ability to 
operate in that what is--frankly, it is battlespace--we need to 
be able to operate in that environment.
    I would use the analogy that we can deploy a force anywhere 
in the world. We have been very good at that, in the United 
States of America projecting power. You cannot deploy to the 
Arctic if you have not trained there, if you don't have the 
right kit, you don't have the right equipment, because it is 
such a harsh environment. And so, we have been working closely 
with the services to increase the activity.
    We see things like the training ranges, the ranges in 
Alaska like the JPARC [Joint Pacific Alaska Range Complex] 
range, continuing to invest in those, so we have a playing 
field to go practice and scrimmage. We do see that as a 
principal avenue of approach that we need to be able to defend.
    Mr. Norcross. So, the Bering Strait is one of the primary 
areas up there. We see that Russia is adding some more missile 
assets to their side. What concern and how are we countering 
those?
    General O'Shaughnessy. As you mentioned, the deployment of 
the missiles to that very critical navigation point that is a 
chokepoint for entry into the Arctic waters is absolutely 
critical. We need to have the ability to maintain our presence 
there, even in a contested environment. Those missiles can 
strike Alaska and our critical infrastructure within Alaska 
with very little indications of warning. Therefore, we have to 
have that persistent defense, that persistent domain awareness, 
the persistent command and control, and persistent ability to 
defend, not be able to just deploy it up there in a time of 
need because we will not necessarily be able to get inside the 
actions of our adversaries. So, we need to invest more in the 
Arctic.
    Mr. Norcross. Just to shift gears a little bit, I'm going 
to talk about the defense of the homeland. With our layered 
defense, you had talked earlier about what we have done to 
increase the capabilities. Hypersonics, how we are defending 
against the hypersonics, particularly if it was a submarine 
launch?
    General O'Shaughnessy. So, a couple of points I would make 
on hypersonics. First, we find that the hypersonics, for 
example, what actually Russia has claimed and we see in place 
already with the Vanguard missile, the hypersonic glide vehicle 
that has nuclear capability. Our biggest point on the nuclear 
capability is that we need to be able to give advanced warning. 
Because it flies in a much different trajectory, it does not, 
like a ballistic missile where you can get a radar on it and 
you know exactly where it is going, the hypersonic glide 
vehicle is unlike that. It has the energy to go to multiple 
areas within the United States, as an example. And so, 
maintaining custody of that requires a different set of sensors 
to be able to do that. So, we have to invest in our domain 
awareness, those sensors that can do the hypersonic. That is 
for the glide vehicle.
    For cruise missiles that we see, it shrinks the time. It 
shrinks the time you have to react. And so, there is an 
investment that we need to continue to make to stay ahead of 
this threat that we can operate at the speed of relevance 
relative to the threat that we see of these advancing cruise 
missiles.
    Mr. Norcross. In 26 seconds, talk about the time 
difference, what you can in this environment. How much does 
that cut down on the President's ability to make a decision?
    General O'Shaughnessy. It cuts down a lot. Both it is the 
speed of it and it is the energy that it has. It can go to 
multiple places, and that doesn't give you the ability to 
project that in a timely manner for our senior leadership with 
our current capability. We need to invest.
    Mr. Norcross. I yield back.
    The Chairman. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you all for being here.
    I didn't realize you guys were cousins. Your grandparents 
must have been so proud of you all. That is pretty amazing, 
pretty amazing.
    General O'Shaughnessy, I wanted to start off talking about 
the F-15C fleet. At last year's posture hearing, you testified 
on the importance of modernizing the fleet for the homeland 
defense and the deteriorating status of the F-15C fleet. And 
the urgency to replace these aircraft was the primary driver 
for the establishment of the F-15EX program. But this year's 
budget request reduced the number of F-15EX aircraft the Air 
Force planned to acquire from 18 to 12. So, from a homeland 
defense perspective, is it still urgent to replace the F-15C 
fleet and what are the vulnerabilities that we face if we don't 
quickly provide these units with capable and safe aircraft?
    General O'Shaughnessy. Ma'am, thank you for letting me 
highlight that. First, as you mentioned, the F-15C has been an 
incredibly important asset for us within the NORAD construct. 
The F-15EX, not only does it modernize it--and obviously, an 
aging aircraft has maintenance reliability problems--but it 
just brings capability really applicable to us in the homeland 
defense business. Specifically, it can carry significantly more 
missiles. And so, that one aircraft can actually have much more 
of an effect relative, for example, to cruise missiles that you 
are trying to defend against.
    Second, it has increased radar capabilities. So, with that 
capability, it allows you to see further out and be able to 
react to those lower radar cross-section threats.
    And the third, I will use the example of what you just saw 
a couple of days ago with the Russians flying over Alaska. It 
is the long lengths that we have to fly; 750 miles from 
Elmendorf, as an example, before we were able to intercept that 
bomber. The F-15EX brings you that extended range which allows 
us to get to the archer, not just the arrows. In other words, 
we can get to the bombers before they actually launch those 
cruise missiles. So, it really gives us flexibility. It gives 
us an incredible increase in capability. So, I would just 
continue to advocate for the advancement of that F-15C and 
transitioning over to the F-15EX one as fast as possible.
    Mrs. Hartzler. Yes. So, what vulnerabilities do you have 
with seeing a reduction in the number of EXs that we are going 
to purchase?
    General O'Shaughnessy. Well, it is just a question of what 
gets--obviously, there will be a delay in purchasing, which 
results in a delay in fielding. And so now, we will maintain 
the current fleet of F-15Cs for longer as we continue to have--
--
    Mrs. Hartzler. Is that possible? I mean, they are in really 
bad shape, aren't they? I mean, could you give us an update on 
the status of those?
    General O'Shaughnessy. They are, but we have just an 
amazing group of maintainers that work incredibly hard. I mean, 
these aircraft, much like the F-16s, are just older aircraft, 
but our maintainers are phenomenal, keep them in operational 
status. But we are putting a stress on the system. And so, I 
would just continue to advocate for replacement as soon as 
possible.
    Mrs. Hartzler. Thank you.
    Admiral Faller, SOUTHCOM's unfunded priorities list 
requests funding for ISR [intelligence, surveillance, and 
reconnaissance] capabilities for drug interdiction and 
counterdrug activities. So, what are your current ISR 
capabilities, requirements, and shortfalls? And how will your 
mission be impacted if you are not provided with adequate ISR 
capabilities?
    Admiral Faller. Well, the impact of the transnational 
criminal organizations and the drugs and illicit things that 
they bring here to the United States, it is a national security 
priority and it is a travesty. And we clearly need to do more.
    One of our gaps is in intelligence, and ISR gives us some 
of our best intelligence in our maritime patrol aircraft, 
unmanned aircraft, and some shorter range aircraft. So, we have 
gaps in all that. Congress has been very good with an ISR 
transfer fund that has helped us fill those gaps, but, still, 
we are trying to cover-down on an area the size of the United 
States with a handful of assets.
    We also have gaps in ships, which we call those force 
packages--a helicopter, a ship, and its ability to search an 
area as well. And that is another significant gap.
    And I would also illuminate the impact security cooperation 
funds have in this regime. For a modest investment, for 
example, in El Salvador special forces, we are able to extend 
the security envelope hundreds of miles out into the ocean.
    Mrs. Hartzler. Sure. It is a huge task.
    How concerned are you with the military's dependence on 
China to receive our pharmaceutical products from them? As you 
know, America does not make aspirin anymore. America does not 
make penicillin. Ninety percent of the drugs that we take here 
in our country, pharmaceutical products, come from China, and 
80 percent of those components are China-based. And we see now 
they make all the syringes. They make our protective air masks, 
face masks, and all of these things--the vaccines, antibiotics, 
and pharmaceuticals--that our military has come from China. 
With China being an existential threat, how concerned are you 
that they are our main source of medicine?
    The Chairman. And I apologize, but that is going to have to 
be taken for the record at this point because the gentlelady is 
out of time.
    [The information referred to can be found in the Appendix 
on page 125.]
    The Chairman. Mr. Carbajal is recognized for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chair.
    And thank you to all you three for being here.
    The political crisis in Venezuela has devastated the 
Venezuelan people and has led to an increase in illicit 
activities, such as drug trafficking. In addition, Venezuelan 
refugees have fled the country and sought temporary residence 
in neighboring countries, especially Colombia. Secretary 
Rapuano, what is your assessment on how the Venezuelan crisis 
has impacted Colombia, Colombia's security and stability, and 
how has the crisis affected regional stability in general?
    General O'Shaughnessy. Well, I certainly can say generally 
that there has been a significant impact in the region, in a 
number of countries. So, I think that this is an ongoing 
challenge. It is a reason why it remains a priority for the 
President and the administration, and we are continuing to 
increase the pressure, so we can look for the appropriate 
changes in terms of the behaviors of the Venezuelan government.
    Mr. Carbajal. Thank you.
    Admiral Faller, an important aspect to strengthening 
regional security in SOUTHCOM is capacity-building through 
sustained engagement. Can you provide the committee an update 
on ongoing capacity-building efforts and also state what the 
biggest operational barriers are for expanding these 
partnerships?
    Admiral Faller. The security cooperation programs that we 
invest in are long-term, high-payoff investments for the 
security right here at home and our partners. So, we are 
helping them build stronger institutions, so they can buffer 
their democracies from the shocks of transnational criminal 
organizations and, frankly, to gain their positional advantage 
from the predatory practices of wannabe great powers like China 
and Russia. So, it has a high impact, and it is not a large 
dollar amount.
    So, we will invest in programs, for example, to help a 
country set up an intelligence service from education to 
doctrine to a system, so they can secure their own information. 
And then, that allows them to share it with us. This is an area 
that we have focused on and prioritized on.
    Mr. Carbajal. What are the barriers to being more effective 
and doing more of that?
    Admiral Faller. One of the barriers is stable funding. So, 
what we have found is, when we don't have a budget that passes 
on time, we try to do a year's worth of security cooperation 
activities in 9 months or 8 months. And then, at the end of the 
year, we often get scrutinized for our lack of good, solid 
execution as we rush to get the money obligated. So, multiyear 
money would be one. Consistent funding levels would be another, 
and authorities associated with those consistent funding 
levels.
    Mr. Carbajal. Thank you.
    General O'Shaughnessy, I know this has been touched on a 
bit, but I wanted to be a little bit more poignant and specific 
with you. This week the committee has discussed quite 
extensively great powers competition across the areas of 
responsibility. With that, China and Russia continue to invest 
heavily in the Arctic, as the Arctic increasingly is viewed as 
an arena for geopolitical competition. In DOD's report to 
Congress on its Defense Arctic Strategy, it states, ``Russia 
and China are challenging the rules-based order in the 
Arctic.'' Can you elaborate on that? Does the U.S. have 
sufficient strategy to counter Russian and Chinese efforts in 
the Arctic--with the underscoring of ``sufficient''?
    General O'Shaughnessy. I think part of that answer is going 
to be highlighting the great work done to craft and deploy the 
2019 DOD Arctic Strategy, a significant change from the 2013 
version thereof, with a real focus of a secure and stable 
region in which the U.S. national security interests are 
safeguarded, the U.S. homeland is defended--so, it recognizes 
that we must be in the Arctic to defend our homeland--and that 
nations work cooperatively to address the shared challenges.
    And so, to your point there, while we do see some 
cooperation, we are seeing more and more of this great power 
competition that has arrived in the Arctic. I will use an 
example of what the Russians are doing with respect to the 
Northern Sea Route, where they are claiming that you need to 
use a Russian icebreaker; you need to use a Russian pilot on 
your vessel. That is not in accordance with the rules-based 
international order. And so, I think we need to be able to have 
a presence, have the ability to operate there, if we are going 
to be able to show by example exactly our ability to operate in 
these common navigable waters.
    Mr. Carbajal. Do you feel we have sufficiency?
    General O'Shaughnessy. So, what I would say is we need to 
invest in the Arctic. I have seen an increase in that activity, 
and we need to invest in order to operate there significantly.
    Mr. Carbajal. So, we are not where we want to be as of 
right now?
    General O'Shaughnessy. The trajectory is in the right 
direction in order to be done.
    Mr. Carbajal. Thank you so much.
    Mr. Chair, I yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our witnesses for joining us.
    General O'Shaughnessy, I want to start with you. Recently, 
I have experienced and seen increased Russian activity off the 
east coast, and that is of deep concern. I understand the Navy 
has stood up the 2nd Fleet as a counter to that increased 
Russian aggression, but I am concerned that we are not 
adequately resourced to really address this the way we need to. 
You see the acquisition of sonobuoys being on the unfunded 
requirements list for the Navy. You see P-8 Poseidon 
production, our anti-submarine warfare aircraft, that 
production being truncated. You also see now a delay in the MQ-
4 Triton program. All of those things cause concern to me. The 
Navy only has five long-range SURTASS [Surveillance Towed Array 
Sensor System] vessels, which are critical in being able to 
deter and detect activity in the North Atlantic.
    We also see, too, that we are on the opposite track on our 
submarine fleet, our attack submarines. We are going to go from 
a high of 52 today to a low of 41 by 2028 in the Virginia-class 
submarine fleet. All of those things appear to me to be going 
in the opposite direction, as we see increased Russian activity 
and aggression on the east coast.
    Give me your perspective on the full scope of that Russian 
aggression. And are we properly resourced and positioned to be 
able to counter what we see, at least in the past 2 years, as 
pretty significant and continued presence of the Russian fleet 
in the east coast off the United States?
    General O'Shaughnessy. Thank you, sir, for highlighting 
this. This is something that I think over time we have been 
able to have the luxury of not having threats to the homeland 
that are literally right off of our doorstep. That environment 
is rapidly changing and has changed. We are correspondingly 
investing in our ability to do that, but, as of yet, we have 
not yet achieved the capability and capacity that we need to 
maintain that competitive advantage.
    To your specific points--and you highlighted exactly the 
list that I would go down ultimately--but I think the ability 
to have that domain awareness--when I say ``domain awareness,'' 
it is not just radars that can see the air domain. It is from 
the undersea, the surface vessels, and all the way up. And so, 
that investment not only in the SURTASS capability, but also in 
the IUSS [Integrated Undersea Surveillance System], the ability 
to have the sensors under the water that can detect those in a 
persistent manner, are critically important.
    I think continuing to invest in the sonobuoys, as you 
mentioned. We employed a lot of them this last little bit, 
without getting into operational details. And I actually got to 
go down and talk to the crews specifically that were doing some 
of those mission sets. And the good news is they did not feel 
that they needed to be limited in their ability to operate as a 
result of the current status. But we have to be mindful of that 
going into the future, invest in that capability, that 
attributable capability that we need to have at our disposal at 
any time.
    The broader point I would make to what you are saying is 
these threats that used to be global in other areas, they are 
now here on our doorsteps, and we must be prepared to defend 
against them.
    Mr. Wittman. Do you think that the current budget request 
is a reasonable response to this increased Russian aggression?
    General O'Shaughnessy. Sir, we work really hard with the 
United States Navy on this. And I would highlight the fact that 
they have put significant investment into the homeland defense 
architecture and the ability to be able to defend ourselves 
here at home. We need to continue that resourcing, though. It 
can't be 1 year or 2 years and be done. This is a continuing 
investment that we need to make.
    Things besides the resources that you think about in the 
budget, but, as you mentioned, 2nd Fleet. Even just having our 
ships operate out there in that environment, it used to be just 
training. Now it is actually operational-level commitment.
    Mr. Wittman. In addition to that, we also see, I think, 
continued threats to our transoceanic cables. Those are 
continual efforts that I think our adversaries look to exploit. 
And as we went through last year's back-and-forth in the 
Congress, we did put together a cable ship security program 
that says that we should have some ships available if, 
perchance, there is an activity against those transoceanic 
cables. My question would be, what else should we be doing 
going forward? Is that threat a constant threat? Is it an 
increasing threat? What are the necessary resources to make 
sure that we are addressing that threat?
    General O'Shaughnessy. I would quickly just say that, yes, 
that is a consistent threat, and that is the way we have to 
look at it. We can't look at it as something we would just 
apply during a crisis. This is something, with so much of our 
communications going through those undersea cables, we must do 
it in a persistent way.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Horn.
    Ms. Horn. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    Following on some of the conversations that we have had, I 
want to talk about, Admiral Faller, the National Guard and the 
role that they play, especially in your AOR. I know that they 
played a critical role over this long period of the past 20 
years of conflict or so. But I know that one of our Guard units 
in Oklahoma is particularly active along the Panama Canal. And 
I would like for you to speak about the role that the National 
Guard plays, and units like the 137th play, in your area of 
responsibility around the Panama Canal for a moment, please.
    Admiral Faller. The State Partnership Program with our 
National Guard is one of our main efforts to build partner 
capacity and readiness of our Guard units. It has the advantage 
of having the habitual relationship over time, over many years, 
that builds trust. And our investments in that program are good 
investments for the security here at home and our partners.
    The Oklahoma Guard currently is deployed to Colombia with 
two MC-12s. These are deployed in partnership with Special 
Operations Command. We are supporting our Colombian partners 
who are in a tough fight with ISR, and that ISR has directly, 
from those two units--and I went down and visited them, and it 
is a real economy effort. There are about 40 of the guardsmen 
there. They are motivated. And that has directly resulted in 
the Colombians being able to action ELN, FARC dissident 
terrorists, and to get after narcotraffic, significantly making 
a huge impact, those MC-12s and the Oklahoma Guard.
    Ms. Horn. Speaking of ISR and following up on some of 
Congresswoman Hartzler's questions earlier, with the proposed 
change in the MC-12 and the needs for ISR and drug interdiction 
and the work in South America, in this transition do you see 
the ability to continue the ISR that you need?
    Admiral Faller. Having the ability to assist our partners 
develop their own ISR capabilities, it means we have got to be 
engaged, present, provide our leadership. And these types of 
deployments are extremely helpful to do that. I would recommend 
continuing these high-payoff, low-cost efforts, such as the MC-
12s that are with the Guard unit. As I understand it, those are 
slated to be taken out of service with upcoming budgets. I 
think they are making the case right now as to why it makes a 
difference, both for the drugs that are taken off the streets 
in Oklahoma and the rest of our States and to take that money 
out of the hands of narcoterrorists in our partners' countries.
    Ms. Horn. So, you see that as a valuable mission?
    Admiral Faller. That is an extremely valuable asset to have 
the ISR in theater with our partners.
    Ms. Horn. Thank you.
    And, Admiral Faller, one more area that I want to discuss 
with you, and that following on about the funding for 
narcoterrorism and the impact. The [section] 333 funding 
authority is designed, of course, to support programs that 
provide training and equipment to foreign countries to build 
capacity of partner nations. I know we have touched on this in 
several ways. But what challenges do you see with the 333 
funding process?
    Admiral Faller. It is clear there is never enough money to 
do all the things the Department wants to do, and we have got 
to make tough choices. The Secretary of Defense has been clear 
about that. And we are all in to work the National Defense 
Strategy Line of Effort 3, which means we have got to account 
for every dollar of money we spend and hour of our time. So, as 
we look forward, the security cooperation funds have got to be 
applied in a manner that directly impacts the future 
challenges. And so, having a balance of these funds to look at 
the global fight is really important. The overall funds are 
about $1.1 billion. So, it is a significant amount of money. 
Applying that globally is really important. As we leverage for 
the future, these long-term payoffs and getting that right is 
so important to us, and our partners depend on it. It is paying 
dividends here at home.
    Ms. Horn. Thank you very much, Admiral Faller.
    I am almost out of time. So, I will yield back, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Admiral Faller, I think you have been very kind with your 
comments. I think the fact of the matter is DOD gives you what 
is left over of ISR after they fulfill the other requests 
throughout the various operating regions.
    And I want to just ask all of you this very quickly. Just 
yes or no, should defending the homeland include defending 
American citizens from narcoterrorists and transnational 
criminal organizations? Yes or no? It is not a trick question. 
All right. Yes?
    Admiral Faller. Absolutely, Congressman.
    Mr. Scott. Okay.
    Admiral Faller. It is a threat to our homeland.
    Mr. Scott. Absolutely.
    Admiral Faller. And the National Security Strategy 
recognized it as such.
    Mr. Scott. Absolutely. So, SOUTHCOM's total operating 
budget for fiscal year 2020 is $1.2 billion, is that correct?
    Admiral Faller. That is correct, sir.
    Mr. Scott. So, to put that in perspective, we spent 14 
times that in Afghanistan.
    Admiral Faller. I am sure it is a higher number. I don't 
know the exact----
    Mr. Scott. We spent 14 times that in Afghanistan. We have 
had 32 deaths in the United States from the coronavirus this 
year, not to diminish that, but this Congress, virtually all of 
us walked out on the floor the other day and appropriated over 
$8 billion for the coronavirus, which has killed 32 so far in 
the United States, again not diminishing that. But we lost 150 
Americans yesterday to drug overdoses. We will lose over 5,000 
a month to drug overdoses that are the end result of Congress, 
and quite honestly, the administration's, not prioritizing 
defending the homeland from narcoterrorists and transnational 
criminal organizations.
    So, your total operating budget is $1.2 billion. Seventy-
five million of your budget is for theater security 
cooperation. General, that is the cost of, it is less than one 
F-35. That is less than the cost of one F-35.
    In your written testimony--and this is what concerns me the 
most--you stated that you were unable to act on 91 percent--91 
percent--of the shipments, despite having actual intelligence 
and authority that a shipment of narcotics was coming into the 
United States. How much additional money would be needed to 
lower this figure to 10 percent?
    Admiral Faller. Yes, we have taken a hard look at that, and 
as I have said in my opening statement, as a result of 
illuminating those gaps, we have received support from the 
Department of Defense, and, clearly, from the President's 
direction, to increase our presence, to address the range of 
threats. That is an area the size of the United States. So, the 
number of assets required to do that is significant. We are 
talking in the dozens of ships and force packages, which is why 
it is so important, sir, to get the partners in the game, 
getting the partners enabled. They are at 50 percent of the 
interdictions right now. With our continued leadership--and 
sometimes it is just time and some resources--and our whole-of-
nation here, working with State [Department] INL [Bureau of 
International Narcotics and Law Enforcement Affairs], and our 
DEA [Drug Enforcement Administration], we want to get those 
partners into 60 percent this year.
    Mr. Scott. So, my concern, as a whole, more Americans are 
dying from the actions of the transnational criminal 
organizations and the violent extremist organizations in the 
Western Hemisphere than any other identifiable source. That 
number of 90 percent, the 90 percent range, has not changed. As 
much money as we have given to the DOD and the increased 
funding over the last 10 years, which has predominantly been 
the end result of this committee, we are still allowing 90 
percent of the actionable items to come through. And so, all of 
the additional money we have given has been transferred to 
other priorities and not to the priority that is resulting in 
more deaths than any other area.
    And I am almost out of time, but I do hope that other 
members will go to SOUTHCOM and look at the small things that 
could be done for a very small price that would actually take 
significant amounts of drugs off the streets of America. And as 
the chairman said, if it hasn't impacted you yet--and he was 
speaking of the coronavirus--it will, and I agree with him on 
that. But I promise you this, if you haven't been to a funeral 
of somebody who died in your neighborhood from a drug overdose, 
you are the lucky one. And I will bet you that you will get to 
go over the next couple of years.
    Thank you for your work.
    The Chairman. And certainly I think that the gentleman is 
correct on the statistics. I would point out, we need to work 
on the supply, but at the end of the day, it is a demand 
problem. What drives the money, what drives this--and you know 
in SOUTHCOM and NORTHCOM what they do to get drugs into this 
country boggles the mind. I mean, they make submarines. I 
believe a fake shark was once used to do this. We just heard 
about the tunnels that are going under the wall that would make 
Hamas proud in terms of what they have built there. And they 
put ladders over the top.
    And why? Because of the money. There is a lot of money to 
be made by selling drugs to Americans who demand them. So, we 
need to really--if that demand went away, there wouldn't be a 
problem. And I really feel in this country we do not focus 
enough on why is the demand there and what can we do to reduce 
it. If the market dried up, you guys' job would be a lot, lot 
easier. So, we need to work on both.
    With that, I will yield to Mr. Golden.
    Mr. Golden. Thank you.
    General O'Shaughnessy, I wanted to ask kind of a followup 
to a lot of questions you got from people earlier about your 
operations in the Arctic with Russia and China building their 
presence out there. Recently, I was reading a little bit of a 
conference where Jim Webster from NAVSEA [Naval Sea Systems 
Command] and the American Society of Naval Engineers was 
talking about some of the struggles with hulls and the ability 
to break through ice and navigate up there. Obviously, we need 
more Coast Guard icebreakers and such. But he did make note 
that the destroyer, the DDG-51's hull performs fairly well 
relative to a lot of other platforms that you might have up in 
that region.
    So, just a more specific question about the DDG, as you are 
considering deterrence, and the role and requirement for 
freedom of the seas that you have up in that region, as I 
mentioned. Are you thinking about, what kind of consideration 
are you giving to leveraging the capabilities coming online in 
FY23 with the Flight III DDG [Arleigh Burke-class destroyer], 
particularly where it is going to have the anti-air ballistic 
missile defense capabilities added to it? Is that something 
that you are looking to use up in that region?
    General O'Shaughnessy. Well, first let me start with the 
polar security cutter. Obviously, not within the Department of 
Defense, but our partners within the Coast Guard need this 
capability. They need it soonest and they need it robustly. And 
so, without that icebreaking capability, the other surface 
vessels will not be able to operate.
    That said, our DDGs have proven to be amazing platforms all 
over the globe. They will continue to do so in those regions, 
especially as we see diminishing ice, but they are not 
icebreakers. And so, therefore, they need the appropriate 
operating environment.
    I applaud the Navy's efforts over the last several years of 
really increasing their ventures into the high north, the 
Arctic, to actually get the crews out there, and they haven't 
been for some period of time, to experience it, learn those 
lessons, and make sure we have the ability to operate in that 
environment. And so, I applaud CNO [Chief of Naval Operations] 
and I applaud all of the operators for going up there, where it 
would be the Harry S. Truman and others that we have seen.
    And I am excited to see, as we look into the future, they 
are continuing that level of effort, as are some of the other 
services, to be able to operate in the Arctic. Because if you 
are not actually doing it, you will not be prepared to operate 
in that environment.
    Mr. Golden. I appreciate that.
    Just throwing it out there, one of the things that I was 
reading in this particular writeup is lessons learned. It was 
something about just old-school tactics. I don't know that I 
quite understand this as a Marine that didn't spend much time 
on a Navy ship. But they were talking about bringing baseball 
caps to combat ice growing on ships. Admiral Faller, I don't 
know, maybe that is something you have heard. But I thought it 
was an unusual lesson learned from training up there. So, it is 
important to do that.
    Thank you.
    Ms. Horn [presiding]. Thank you, Mr. Golden.
    Mr. Byrne, you are recognized.
    Mr. Byrne. Thank you.
    Admiral Faller, good to see you.
    For some time, you and I have discussed, and we have 
discussed on this committee, the need to have a naval presence 
in your AOR. You finally got the USS Detroit. Tell us what 
impact has come from that.
    Admiral Faller. I will just associate myself with the 
remarks of General O'Shaughnessy on the importance of ships, 
Coast Guard assets, U.S. Navy ships. At the end of the day, we 
have got to have platforms to do the work. And they both enable 
us to do detection and monitoring, to find and then use law 
enforcement assets, Coast Guard law enforcement detachments to 
do the interdiction, but they also allow us to train with our 
partners and to perform a variety of missions.
    In the case of Detroit, the first deployment of a littoral 
combat ship to the region, it performed above all standards of 
good operational readiness. We took that ship off the coast of 
Venezuela. We did a freedom of navigation operation. That ship 
performed superbly. The ship was involved in counternarcotics 
operations and it was welcome. And so, we will see that ship 
back.
    And so, that presence sends a big statement about U.S. 
commitment. It sends a big statement to our friends--it 
reassures them--and then, to our adversaries. And those are 
capable platforms.
    Mr. Byrne. Would you like to have more?
    Admiral Faller. We have a demand signal that is unmet 
through the global force distribution. And I think our Navy 
would like to have more and we would like to have some of that 
presence in SOUTHCOM. Our 4th Fleet, which is the counterpart 
to the 2nd Fleet in Norfolk, they focus on building partner 
capacity, working with our partners in exercises. You have got 
to have ships to do that. You have got to have assets to do 
that.
    And I think the littoral combat ship, you and I have been 
to sea on one.
    Mr. Byrne. Yes.
    Admiral Faller. They provide the right kind of platform for 
this region to meet our partners' needs. And the ship, it had 
some problems in the past. It is working those bugs out. And we 
have been happy with the deployment of the Detroit.
    Mr. Byrne. Good.
    Last year, we authorized and appropriated money to convert 
an expeditionary fast transport to a medical transport. Does 
this type of capability help with your missions in SOUTHCOM?
    Admiral Faller. It does. We have one deployed with us now. 
We have asked for more. We think we could use it as a platform 
for a range of missions--counternarcotics mission, to put 
Marines on. The Commandant of the Marine Corps has been very 
clear he wants to get the Marine Corps back to sea. This 
platform can hold in the neighborhood of hundreds of Marines 
and it can be flexible to move around and allow those Marines 
to engage partner marines. The United States Marine Corps, like 
our Navy, are the gold standard. Partners want to train with 
them and learn from them. And then, that plays back when our 
partners need to fight alongside us, as some of them have had 
to do in past wars. And so, we welcome that ship as a flexible 
platform.
    It turns out they are in demand by all the combatant 
commanders, and we are making the case for why a couple more, 
working in tandem with perhaps a littoral combat ship, as a 
floating logistics base, in addition to working with Marines--
you know, the fast speed, shallow draft, there is a tremendous 
amount of flexibility in those platforms. And we have asked for 
those, as well as we have asked for the acceleration of the 
expeditionary staging bases, which are built out in San Diego, 
as a way to move Marines around the theater, make a statement 
of U.S. presence and commitment, and importantly, get our 
partners engaged in the training. Important platforms.
    Mr. Golden. Let me shift gears for a minute. What effect 
has the reduction in foreign assistance to the Northern 
Triangle had on your ability to work with partners and allies 
in the region?
    Admiral Faller. The funding has been restored, and it is 
critical in the mil-to-mil range. IMET training, for example, 
is what we would apply to a country like Honduras. I use those 
as examples. So, while that funding was suspended--and I agree 
that the pressure actually worked that we placed. Those nations 
have stepped up to do more on the migration. So, the pressure 
was good. The pause in funding, to me, in a way demonstrated 
the commitment of our partners. Honduras transferred money 
around, and they value our education so much that they paid for 
it.
    But something, clearly, didn't get done as a result of 
that. So, the consistent funding in those realms is important 
to build their capacity. Again, there has to be a return on 
investment shown. We have seen that. So, there was an impact, 
but I think we are through that now and we are moving ahead. 
And those nations have stepped up to demonstrate why they are 
responsibly using the funds that our taxpayers are providing. 
We have got to have a show of return on investment.
    Mr. Golden. Thank you. I yield back.
    Ms. Horn. Thank you. Thank you, Mr. Byrne.
    Ms. Torres Small, you are recognized.
    Ms. Torres Small. Thank you very much, Madam Chair.
    I thank you all for being here and for your service to our 
country.
    General O'Shaughnessy, in the context of a heightened 
period such as we are in today, with the eve of the 2020 
elections and aftermath of the Soleimani strike, can you speak 
to how NORTHCOM liaises with DHS's Cybersecurity and 
Infrastructure Security Agency, CISA, the FBI [Federal Bureau 
of Investigation], U.S. Cyber Command, and the National 
Security Agency, to monitor for domestically targeted threats 
from overseas adversaries such as China and Russia?
    General O'Shaughnessy. Yes, thank you, ma'am, for allowing 
me to highlight some of the great work that is being done, and 
there is collaboration here. And that is the exciting part.
    Literally, from the day that CISA stood up, literally the 
very day they stood up, we had liaisons embedded within their 
and they had liaisons embedded within our command and control 
organization at NORTHCOM. And so, literally, as it was birthed, 
we were able to be part and connected with CISA.
    Almost every event that we do, we end up there with CISA 
because you can't separate homeland defense and homeland 
security to that point. In fact, I meet more with the Secretary 
of Homeland Security, I think, than even the Department of 
Defense because we have such a tight relationship there.
    Ms. Torres Small. And what is NORTHCOM's specific role in 
that partnership?
    General O'Shaughnessy. Right. One of the things that we 
found is that it is a team effort, right? And you mentioned the 
right players that are part of that. One of the things NORTHCOM 
has found is we can apply the same model that we have been 
using for hurricanes and applying Federal capability to some of 
the State and local issues. We find that we can actually apply 
that using that model and taking the expertise, for example, in 
Cyber Command and applying it through NORTHCOM in a defense 
support to civil authorities model.
    So, I will use the elections as an example in both 2018 and 
now even in the Super Tuesday we just had. We actually brought 
all of the TAGs [The Adjutants General] in to our headquarters 
and we had Paul Nakasone from Cyber Command there and Joel 
Langill there. We provided them information at the highest 
classification level of what the threats were that were out 
there. We then gave them some capability and capacity that they 
could bring back to their States, because it is just not fair 
for a State, like the local State like Colorado is where I 
live, to be competing with a Russia, as an example. And so, 
that----
    Ms. Torres Small. And I promise I am not cutting you off 
because you are from Colorado, but I do want to switch to get 
to another point quickly. Admiral Faller, I am going to switch 
to you just briefly. I really appreciated my colleague's 
discussion with you about the Northern Triangle, and I just 
want to follow up slightly.
    I noticed in your statement--and I appreciate your 
concern--about South America's increasing absorption into 
China's Belt and Road Initiative, and these tactics of 
predatory economics provide the pathway for China to hold 
significant leverage over the region's affairs. I know that you 
talked about the funding being restored, but during the time 
that it was frozen, do you believe that it helped malign actors 
like Russia and China grow in the region?
    Admiral Faller. It certainly provides an additional window 
for them to come in and work their tactics and techniques. What 
we hear from partners is that they want to partner with the 
U.S. They want to align with us. And I don't actually get into 
the choosing thing, but we do talk about democracies and values 
and consistent long-term relationships and respect for human 
rights and rule of law, and those sorts of things that align 
themselves. And we, then, expand it beyond the predatory loans 
to IT [information technology] that not only has a front door 
but a back door right into Beijing, to illegal fishing and 
illegal mining, and construction of questionable construction, 
and all these sorts of things.
    And the clear choice is to partner with the U.S., but in 
order to do that, we have got to be present. And I think we are 
at the level, we are back to the level now with the countries, 
the Northern Triangle--Honduras, Guatemala, and El Salvador--
that allows us to continue to commit and have them pay back on 
our security.
    Ms. Torres Small. And just very briefly, could you mention 
any specific programs that the State Department and USAID 
[United States Agency for International Development] have that 
work especially well to enhance regional security and protect 
our interests in the Northern Triangle?
    Admiral Faller. I have mentioned it several times today, 
the IMET program. International education is key. The Foreign 
Military Finance, FMF, program is a State Department program. 
It is multiyear and gains that security cooperation. That is 
important. The State Department has a GPOI, Global Peace 
Operations [Initiative] program. That, for example, allows the 
El Salvadorans to deploy to Mali.
    Ms. Torres Small. Okay. I have got one more question. So, 
thank you, and we will follow up on those. I apologize.
    General O'Shaughnessy, one more question for you. As 
migration flow at our southern border has decreased, have the 
number of Active Duty troops decreased commensurately?
    General O'Shaughnessy. Ma'am, they have been consistent 
throughout this year, this both calendar and fiscal year, to 
what the request for assistance had come from the Department of 
Homeland Security.
    Ms. Torres Small. So, you have not decreased the troops? 
They have not returned to their missions?
    General O'Shaughnessy. They have not. They have been 
steady-state.
    Ms. Torres Small. Okay. Thank you.
    I yield the remainder of my time.
    Ms. Horn. Thank you, Ms. Torres Small.
    Mr. Kelly, you are recognized.
    Mr. Kelly. Thank you, Madam Chair.
    Admiral Faller, recently, I have been hearing rumors that 
there is a potential for up to a 20 percent reduction in 
security cooperation funding within DOD. If true, I am 
extremely concerned about the disproportionate impacts these 
cuts will have in your AOR and, also, in AFRICOM, some of those 
places where we do a lot more with less. I am extremely 
concerned that I think a large part of that is planned to be 
taken out of the State Partnership Program, which gives 
tremendous benefits all across the world and is a low cost. So, 
we cut something that is really effective. Can you talk about 
the strategic risk that a cut to security cooperation, and 
specifically the State Partnership Program, would have on 
SOUTHCOM?
    Admiral Faller. The defense-wide review did cut 20 percent 
from the Department's, what we call our 333, security 
cooperation program. And those cuts have been distributed 
across the combatant commands. The FY21 percentage of that cut 
for SOUTHCOM is right at about 20 percent. SOUTHCOM has been 
decreased in that fund 32 percent in the last 3 years, and we 
have had to make some hard choices on prioritization. And 
prioritization is important. So, there is no argument there in 
terms of prioritization.
    But our Guard's teams, and your State's Guard team 
partnership with Bolivia, they are key and they fall in. Often, 
those Guard teams, the partnership teams are the force 
providers that go along with the security cooperation fund. So, 
with just the people without the funds, it really doesn't 
provide a whole package for some of the engagements.
    We are looking at how do we restart our relationship for 
Bolivia, for example. And that will be challenging for us to 
find the funds to leverage that relationship. I will argue that 
that is great power competition and a long-term investment, as 
we provide a modest amount of investment in a country like 
Bolivia or Ecuador or Peru that gives us leverage and allows us 
to train, allows us to be interoperable with our partner, 
allows them to get after threats that affect us and them. So, 
the drug threat is a perfect example. It pays long-term 
dividends and gives the United States of America positional 
advantage against future great power moves from China and 
Russia. Somebody is going to fill the void.
    One of our chiefs of defense said, ``When you need a life 
ring, you are going to take it from anybody.'' I said, ``Yes, 
but careful what the rope around that life line does to you.''
    Mr. Kelly. And you are right, we also have a State 
partnership with Uzbekistan, which has yielded tremendous 
benefits in CENTCOM's AOR, based on a State partnership and a 
personal relationship that I have that was established long ago 
through my Guard State Partnership job.
    Talking about Bolivia, I am hopeful that we can re-engage. 
And I know that our Adjutant General is re-engaging, and I 
think there are some opportunities there to get in on the 
ground floor and establish relationships that help us carry 
that forward.
    So, I hope that we will continue to strengthen the State 
partnerships in Bolivia and other areas and, also, the IMET. We 
have got to use that. And I know that you do. But places like 
Bolivia, where we haven't in the past had people in IMET, the 
sooner we get engaged, the sooner we are influencing and making 
friends with the leaders of 20 or 30 years from now, which is 
very important.
    I was just recently in Iraq. The CHOD [chief of defense] 
was actually a guy I served with over there. And we recognized 
each other, and that goes a long way.
    So, if you would just briefly, what can we do to strengthen 
the State Partnership Program in the Western Hemisphere?
    Admiral Faller. I think the things General O'Shaughnessy 
mentioned where he brings the State partners together, we do 
the same thing. We bring them together. We talk about what our 
shared objectives are, how do we reach those shared objectives 
with the partner, how do we make the best--and for us, a State 
partnership is our principal force that we send to these 
nations. And so, how do we ensure that we are doing that most 
efficiently?
    Predictability is important because we have got to be able 
to tell our partner nations and our State partners a year out 
that you can depend on this month, this time. We want to be 
unpredictable to our enemies, but predictable to our partners 
in the Guard and to our nation, partner nation. So, stable, on-
time budgets, the consistent funding level are very, very 
important as we go forward.
    Mr. Kelly. And just finally, I want to compliment both of 
you guys and all our other COCOM [combatant command] 
commanders. You guys are really engaged with the State 
Partnership Program and give good guidance, so that we make 
sure that our Guard units from 54 different States and 
territories are engaged with the right priority, which are 
DOD's priorities. So, I just thank you for what you all do 
every day with our State Partnership Program.
    With that, I yield back.
    Ms. Horn. Thank you, Mr. Kelly.
    Ms. Escobar, you are recognized.
    Ms. Escobar. Thank you, Madam Chair.
    And thank you to our panelists. Thank you for being here 
today, and thank you most especially for your service.
    General O'Shaughnessy, it was wonderful to visit with you 
yesterday, and I really appreciated our conversation and the 
time that you took, and your commitment to ongoing 
communication, especially with regard to Fort Bliss and El 
Paso. My questions really are going to center around some of 
the conversations that we had yesterday.
    I know NORTHCOM oversees critical missions that help 
provide for our security. And you and I talked about how 
important those missions are. That is why one of the things I 
am always concerned about is the opportunity cost of tapping 
military resources. When we apply military resources to legal 
asylum seekers, we take our eyes off of genuine national 
security threats. With regard to the latest crisis response 
force being deployed to the border, including to my community, 
El Paso, can you indicate what missions they would otherwise be 
engaged in and how are those losses made up?
    General O'Shaughnessy. Yes, ma'am. First, I would highlight 
that this force that we are talking about, approximately 160, 
of which 80 went to California and 80 went to Texas, that force 
is actually assigned to us for this particular mission set. 
This is actually an opportunity to highlight the great work we 
do with the Department of Homeland Security, realizing, to your 
point, that this force is really for a different purpose, and 
they allowed us to keep that force at home at Fort Polk in 
order to maximize the readiness for that force. They were able 
to train together. They were able to stay at home with their 
families until they were actually needed for, in this case, 
what they were seeing as an increased demand signal as a result 
of the Ninth Circuit Court decision. And so, in some ways, that 
was a positive because, since October, they have been on this 
mission set, but they haven't had to deploy to actually go do 
the mission on the border. Our commitment to DHS was that, if 
they asked for it, though, we would make it available to them. 
So, we did in the timelines that they were so inclined to do 
so.
    But this is a military police force. This also includes 
helicopters and a general purpose force. So, we have tried to 
walk that balance of maintaining the readiness while still 
contributing to our lead Federal agency for securing the 
border, Department of Homeland Security.
    Ms. Escobar. I do want to point out that what has been 
unusual and new, and particularly alarming to my community, is 
the sight of military personnel with guns at our ports of 
entry--ports of entry that are utilized every single day by 
tens of thousands of people in a community that is binational, 
bicultural, truly international, a community really that sees 
itself as one region. And we see our ports of entry as symbols 
of unity and symbols of friendship and familial ties as well 
and economic ties. While this may be part of the umbrella of 
work, having seen this just happen recently has been jarring to 
many members of my community. How long do you expect the crisis 
response force to be engaged at our ports of entry in this way?
    General O'Shaughnessy. Ma'am, I would say, first, I want to 
send kudos to our teammates in this, our Department of Homeland 
Security brethren and our Customs and Border Protection [CBP]. 
They do a phenomenal effort every day across not only the 
ports, but across the border at large.
    Specifically to this particular deployment, it will last as 
long as Customs and Border Protection feel that they need to 
have this capability there. So, I can't give you a specific 
answer. It is not a task. It is actually on call, if you will, 
for the remaining of the fiscal year. I don't believe it will 
be deployed for that long. I suspect over time, in coordination 
with the Department of Homeland Security, they will relieve us 
of that particular mission set.
    I would also note that they are not the primary responders. 
They are there as a backup for our lead Federal agency in doing 
this mission.
    Ms. Escobar. I understand that. It still is really jarring 
to have families who have been used to seeing our ports of 
entry in a very positive light suddenly see military 
enforcement on these ports.
    What are the specific duties? Do you know what the specific 
duties are for the folks that are actually on the ports of 
entry? And I am running out of time. So, if you wouldn't mind 
just being brief. Thank you.
    General O'Shaughnessy. Very quickly--and this might 
actually help--first, we transport the DHS members, the CBP 
members to the right place. Second, we provide the engineering 
capability to move obstacles, if they need to move obstacles 
very quickly. And only third, and in a tertiary role, do we 
have our military police that could be employed.
    Ms. Escobar. Thank you so much, General.
    I just want to reiterate for the public that the Congress 
has funded the Department of Homeland Security, two 
supplementals, hundreds of millions of dollars. And I believe 
they are well-equipped to do the job.
    Thank you so much. I really appreciate all of you.
    I yield back.
    Ms. Horn. Thank you, Ms. Escobar.
    Mr. Gallagher, you are recognized.
    Mr. Gallagher. Thank you.
    Secretary Rapuano, I want to thank you for your consistent 
engagement with the Cyberspace Solarium Commission. Thank you 
for mentioning the work of the report in your testimony and the 
concept of layered cyber deterrence. We are, as you mentioned, 
releasing our findings today.
    For those who are interested or perhaps are having trouble 
sleeping, this is the final report. You can get a copy from all 
of us. For the literal tens of people watching on C-SPAN right 
now, this is the report right here.
    But we do hope that we can spark a debate, and your work 
was essential to the final product. So, I want to thank you for 
that.
    Because so much of our final strategic recommendation 
involves building upon the progress that has been made within 
DOD around ``defend forward,'' could you briefly sort of 
describe the genesis of defend forward and the steps you have 
taken to implement that, as part of DOD's overall cyber and 
National Defense Strategy?
    Secretary Rapuano. Certainly. Thank you, Congressman 
Gallagher.
    Defend forward is really about preempting, deterring, 
defeating malevolent cyber activity targeting the United 
States. In order to do that, you have to be forward; you have 
to be understanding how adversaries are operating, what tools 
they are using, what techniques they are applying. So, that is 
really the driving emphasis of our strategy in terms of where 
we were several years ago and where we are today.
    Mr. Gallagher. And then, a lot of what we talked about in 
the course of the Commission's work was, in some sense, the 
difference between deterrence in cyber and strategic nuclear 
deterrence in the Cold War is that there is little margin for 
error and for failure in the latter, but we start from a 
position of sort of constant failure, particularly below the 
threshold for military force in cyber. And therefore, we need 
to build in a certain level of resilience in the face of 
failure.
    With that in mind, and when we talk about homeland defense, 
let's say there is a significant cyberattack. Would it make 
sense to have some sort of continuity to the economy plan in 
place with accompanying legal authorities to be more resilient 
and be able to recover quickly in the case of such a massive 
cyberattack?
    Secretary Rapuano. Sir, I think what you are getting at is 
identifying the most critical infrastructure functions that may 
be vulnerable to cyber, identifying them as such, and applying 
specific measures of effectiveness and applications of security 
that should be applied to those systems, and thinking through 
what rapid reconstitution would be required if there were 
successful attacks against these most critical elements of the 
Nation's economy and other vital functions.
    Mr. Gallagher. Thinking through the unthinkable and being 
ready prior to a crisis to potentially mitigate the effects of 
it?
    Secretary Rapuano. Correct.
    Mr. Gallagher. And then, finally, I would just say one of 
the recommendations that may not get as much attention is this 
idea that we have talked about at the subcommittee level of 
having the cyber mission force do a force structure assessment. 
Those of us who deal with the Navy argue about the Navy's force 
structure assessment, or lack thereof sometimes. Similarly, the 
cyber mission force was designed based on outdated requirements 
from 2013. And so, we are sort of asking you and General 
Nakasone and others to do some analysis and tell us, given 
everything that has changed in the interim and the threat 
landscape in cyber, what is the appropriate force structure for 
cyber? Is that something that makes sense to you?
    Secretary Rapuano. So, Secretary Esper has already tasked 
that to be done, an assessment for cyber operating forces, 
looking back at what drove the original numbers, where we are 
today, the very significant, dramatic changes in terms of the 
threat environment, as well as in the capabilities and 
authorities of the Department of Defense and other agencies as 
well. And what is that? How well do we understand what types of 
capabilities/expertise need to be represented in that force? 
So, that is being done as we speak.
    Mr. Gallagher. Well, fantastic. And again, thank you for 
your engagement with the commission. Thank you for your 
leadership.
    And again, in a shameless plug to the Commission's work, it 
is also available--shocker--online at solarium.gov for those 
who would like to read the final work of the Commission. We 
hope this will, if nothing else, spark a debate about the 
status quo in cyber. And I think all of your testimonies have 
shown how important this new domain of geopolitical competition 
that is cyber is.
    So, thank you, gentlemen, for all of your service. 
Appreciate it.
    And I yield back.
    Ms. Horn. Mr. Gallagher, would you like to submit those for 
the record?
    Mr. Gallagher. That is a great idea. Can I submit these for 
the record?
    Ms. Horn. I ask unanimous consent to include into the 
record all members' statements and extraneous material, 
including the Cyberspace Solarium Commission reports. Without 
objection, so ordered.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Ms. Horn. Ms. Luria, you are recognized.
    Mrs. Luria. Thank you.
    And I would like to follow up on my colleague Mr. Byrne's 
comments about the LCS [littoral combat ship] deployment to 
SOUTHCOM. Over the course of these hearings last year, I 
specifically asked each geographic combatant commander about 
the presence that they have received in their region versus 
what they have requested through the GFM [Global Force 
Management] process. It is good to hear that we have increased 
exponentially from zero to one this year, but I wanted to focus 
back on the importance of that deployment to the SOUTHCOM 
region. And you mentioned FON ops, the freedom of navigation 
ops, partnership missions, counternarcotics operations.
    Just for the moment, I would like to focus on the 
capability of the LCS as a platform, as a suitable platform for 
those types of missions in the SOUTHCOM AOR. As a caveat, the 
reason I mention that is because in other hearings with the 
Navy there has been discussion of decommissioning the first 
four ships of the class as early as 12 years in their life. So, 
can you comment on how effective that platform is for missions 
in areas such as SOUTHCOM?
    Admiral Faller. It is a very effective platform. It is 
versatile. It has a large flight deck. The variants that we 
have deployed, we have sent with Unmanned Fire Scout capability 
as well as manned helicopter. That really exponentially 
improves the ability to search out the ISR over time. The 
mission capability, the large internal reconfigurable spaces 
are important for the full range of mission sets.
    We have been up to Mayport, Florida, and visited some. I 
have taken my Marine Forces South commander with me. Lots of 
potential there for Marines to go afloat with flexible 
maneuverability. So, we could partner as a naval force with our 
partners and in exercises, as well as the mission sets that you 
mentioned.
    Mrs. Luria. So, would you include in the utility of that 
platform also the first four ships of the class? We are looking 
at decommissioning ships well beyond the end of their service 
life. Yet, it sounds like the baseline capabilities of these 
ships would be useful within SOUTHCOM for the missions that you 
are accomplishing.
    Admiral Faller. Broadly, ma'am, I would say numbers do 
matter. There is a value to capacity and the capability it 
brings. I know the Navy is challenged with the budget numbers 
and readiness, and I know there has been some challenges with 
these lead ships of the class on readiness. I don't think I am 
in a position from the readiness tradeoff and cost to comment 
on the utility of those first four, but I would say that, 
broadly, we don't have enough platforms.
    Mrs. Luria. Right. So, I was going to say presence is 
important, and presence in the SOUTHCOM AOR, you have 
reiterated numerous times how important that is to our allies 
and to the other actors within the region. And so, I have 
frequently discussed the OFRP, or the Optimized Fleet Response 
Plan, and how that is not generating as much presence as I 
believe the Navy's capability has. So, if I am taking it, you 
would prefer to see more presence generated than purely surge 
capability from the vessels that the Navy currently has, not 
even talking about upcoming shipbuilding?
    Admiral Faller. You stated well, and better than I. Zero is 
equal to zero in any math equation or it is infinity, 
unsolvable. So, we have to be present in some levels to 
compete. And so, that persistent presence is important, in 
addition to the presence that we might provide from an 
exercise. And so, it does take numbers of ships to do that. I 
think that the OFRP readiness model is capable of generating 
the right readiness for that presence. Not all the ships have 
to be, in my view, to go to South America and Latin America, 
the Caribbean, ready for every warfare mission. They have to be 
safe to steam. They have to be able to protect themselves, and 
they also have to be able to partner and do the 
counternarcotics mission set. And so, I think we can look at 
this globally and put the right presence at the right time, and 
ships are one of our critical gaps.
    Mrs. Luria. And you also mentioned earlier the MMSV, the 
Multi-Mission Support Vessel. Can you talk a little bit more 
about that construct and what other types of somewhat out-of-
the-box-type combinations of vessels, whether they be contract, 
MSC [Military Sealift Command]-operated, Navy, or Coast Guard, 
that could provide further capabilities that are really 
specific to your region, and that essentially done at a lower 
cost than our high-end ships such as DDGs or cruisers?
    Admiral Faller. Thanks to filling unfunded priority, this 
innovative Multi-Mission Vessel is making a huge difference, 
and we have put it in as an unfunded for next year at $18 
million for the request. I think it is a game changer.
    Mrs. Luria. So, you are basically saying $18 million is 
making a big difference?
    Admiral Faller. But that is $18 million funding for the 
entire year for the ship, for the Multi-Mission Vessel.
    I would also just be remiss if I didn't talk about how much 
more the Coast Guard is doing. They sign up for four force 
packages a year, and they are currently supplying eight. And 
so, the Coast Guard is punching well above its weight in this 
AOR.
    Mrs. Luria. It is great to see the Coast Guard providing 
that capacity.
    I know we don't have a lot of time left, but I would like 
to think further about the MSC platforms and, specifically, how 
we could leverage those types of platforms for exactly the 
mission that you are talking about. So, I would like to have an 
opportunity to continue that conversation later.
    Admiral Faller. Yes, ma'am. Thank you.
    Ms. Horn. Thank you, Ms. Luria.
    Mr. Waltz, you are recognized.
    Mr. Waltz. Thank you, Madam Chairman.
    Thank you all for everything that you do. And, Admiral, 
thank you for your time this week.
    So, I just want to again shift back to some of the great 
power competition that we are seeing in our own backyard. I am 
not very sanguine about it at all. I think we need, as this 
committee and as leaders, need to be ringing the alarm bells to 
the American people, who I don't know fully appreciate the 
level of what is going on just to our south, and frankly, 
across the United States.
    So, while I fully support the National Defense Strategy, I 
am not so sure about the apportionment that we are seeing in 
this budget, as you heard a number of members mention. I mean, 
this committee will literally authorize hundreds of billions of 
dollars buying more stuff, a lot of stuff, a lot of it focused 
on the Taiwan scenario, and I fully support that. But, as we 
have all mentioned, security assistance is great power 
competition. Partnering with our partners is great power 
competition. The State Partnership Program--Florida's partner 
is Venezuela--is great power competition. So, while we are kind 
of shoulder-to-shoulder or force-to-force war-gaming out in the 
Indo-Pacific, we have the termites eating up our foundation 
right in our backyard, and I find that incredibly concerning.
    So, the first question for you, Admiral, can you tell us 
more about China and Russia, boots on the ground in Venezuela? 
It is mentioned in your testimony, ``advisors.'' Are those 
uniformed Russian military that are on the ground in Venezuela 
advising the Maduro regime?
    Admiral Faller. We have Cubans in the thousands, Russians 
in the hundreds, the Chinese in lesser amounts. These Russians 
range from contractors working on air defense systems, working 
on helicopters, working on Su-30s [fighter aircraft], to the 
highest end special forces that are present, training----
    Mr. Waltz. Spetsnaz?
    Admiral Faller. Yes, sir, that is right.
    More broadly, I would like to expand the Russian presence 
in the AOR. We saw a record number of Russian ship deployments 
this year. The cable survey, cable-cutting ships, currently on 
station doing their work here; a Russian high-end frigate that 
has cruise missile, nuclear-capable cruise missile that came 
around, and with several other ships came into NORTHCOM's AOR. 
Late last year, we had Russian bombers fly into Venezuela. So, 
Russians have also invested in a training center in Nicaragua.
    Mr. Waltz. Would you say that the Monroe Doctrine is at 
risk?
    Admiral Faller. Oh, I think the Russians see the value of 
their access, presence, and influence here in the hemisphere, 
as well as the Chinese. You mentioned the Chinese. We have been 
asking ourselves the question--and Ambassador Manes fought the 
hard fight as ambassador in El Salvador--why would the 
Russians--or the Chinese, excuse me--try to lock up 75 percent 
of the coast of El Salvador in a 99-year lease? Now they were 
thwarted, but they are still at it. Why is China trying to buy 
a deepwater port in Jamaica? And why has China built a road 
across Jamaica, which they have a 50-year lease to collect all 
the tolls on that road? It is not a very good deal.
    Mr. Waltz. I think, in addition, I was just down in Panama 
with Representative Rogers and Representative Scalise. I think 
the American people need to understand the Chinese own the 
Panama Canal now. They own the ports on both sides, and they 
are putting the ports they don't own out of business. And we 
have had frigates that cannot stop and get the repairs they 
need because the Chinese-backed ownership has said no. Do you 
find that concerning? Obviously, a part of our CON plans, our 
contingency plans, is to be able to shift our fleets from east 
to west, or vice versa. And if the Chinese own the Panama 
Canal, built by Americans, does that concern you as a military 
commander?
    Admiral Faller. Our most significant exercise every year is 
the defense of the Panama Canal exercise. And as you noted----
    Mr. Waltz. Sorry, I am just very short on time. Should we 
be back in Panama, American boots on the ground?
    Admiral Faller. I think it is something we should approach 
carefully with the government of Panama. The new government is 
very aligned with U.S. interests and is looking to reverse some 
of the Chinese influence, and we should approach carefully what 
the best access is there. It is a strategic location and we 
need to stay engaged there.
    Mr. Waltz. General, just in my time remaining, my 
understanding, in the Bahamas, the Chinese are very 
aggressively moving into the Bahamas 50 miles off the coast of 
the United States and buying fishing rights, when we have one 
of our most sophisticated underwater testing facilities there 
that tests all of our submarines, our unmanned vehicles. What 
are we doing in terms of the Chinese influence in the Bahamas?
    General O'Shaughnessy. As I am short of time, I will just 
broadly say that we are concerned about the Chinese influence 
there, both from a commercial investment and resorts that, 
then, equates influence. AUTEC [Atlantic Undersea Test and 
Evaluation Center] is the particular place you are referring 
to. We have sensitive operations there that we want to keep 
sensitive and then be able to do what we do there without 
intrusion from the Chinese. So, yes, we are concerned, and I 
think sometimes we forget that it is 50 miles off our coast.
    Mrs. Luria [presiding]. General, your time has expired.
    Mr. Waltz. Can I take the rest for the record?
    Mrs. Luria. I request that you take this conversation for 
the record.
    Mr. Waltz. Thank you.
    [The information referred to can be found in the Appendix 
on page 125.]
    Mrs. Luria. And, Mr. Garamendi, you are recognized.
    Mr. Garamendi. I almost want to yield you another 5 
minutes. You are onto something very important, Mr. Waltz.
    Every answer to your question was ``We're concerned.'' That 
is totally unsatisfactory. Yes, we are concerned, too, but what 
are you doing about it?
    Admiral Faller. With the Chinese, our best efforts are to 
stay engaged through education, exercise, and security 
cooperation. One of our main nuclear forces----
    Mr. Garamendi. We have already heard that the security 
cooperation money is being taken out of the appropriations and 
out of the budget. We had that discussion earlier.
    The point here is, yes, we are concerned, but at the same 
time we are not providing the resources that that concern can 
actually result in action. And there is much, much more. Nobody 
here has yet asked about the infamous border wall ripoff, $11 
billion--$1.4 billion or $2 billion taken from the National 
Guard across the United States, all of them, for their 
equipment.
    Mr. Rapuano, is that creating a national security problem 
within the borders of the United States when the National Guard 
doesn't have its equipment?
    Secretary Rapuano. The decision----
    Mr. Garamendi. The answer is yes. Okay? Is it yes or no?
    Secretary Rapuano. The decision was it was a prioritization 
process made by the Secretary of Defense.
    Mr. Garamendi. To do what? To build a border wall.
    Secretary Rapuano. To meet direction from the President to 
address a homeland security challenge that the Department was 
not----
    Mr. Garamendi. So, it was the President's decision. What is 
your view?
    Secretary Rapuano. My view is that DHS is supporting the 
enforcement of laws on the border, legislated by Congress, and 
is overwhelmed in terms of its capacity by the numbers crossing 
illegally.
    Mr. Garamendi. That is a lot of--that is just not factual. 
You know that is not factual. So, don't give us that. All 
right?
    Secretary Rapuano. That is factual.
    Mr. Garamendi. Then, deliver to me the facts, not alternate 
facts. Deliver to us the facts. Okay? When will you have those 
facts in my office?
    Secretary Rapuano. We can provide you all the information 
upon which we based our response to DHS's request for 
assistance.
    Mr. Garamendi. When will you have it in my office?
    Secretary Rapuano. We will provide you copies----
    Mr. Garamendi. When?
    Secretary Rapuano. When?
    Mr. Garamendi. Yes. Tomorrow?
    Secretary Rapuano. No, not tomorrow, but----
    Mr. Garamendi. But when?
    Secretary Rapuano. Next week.
    Mr. Garamendi. Don't dance with me. When will you deliver 
those facts?
    Secretary Rapuano. Next week I think we can do that.
    Mr. Garamendi. When?
    Secretary Rapuano. By Wednesday of next week.
    Mr. Garamendi. Very good. I will expect it.
    Secretary Rapuano. You will have it.
    Mr. Garamendi. Eleven billion dollars taken out of the 
Department of Defense activities all across this world, 
including within the United States--Puerto Rico, Guam, New 
York, New Mexico, critical national projects that were 
determined by the Department of Defense and this committee, and 
the Senate, military construction projects. So, when are those 
going to be built, because we knew they were important?
    Secretary Rapuano. They will be funded in the years ahead. 
They were deemed to be not as critical in terms of funding now.
    Mr. Garamendi. Okay. I would like to see the analysis of 
that criticality. Will you deliver that to my office next 
Wednesday also, why the border wall, of which, under 
construction projects, $3.8 billion was taken out of those 
military construction projects across the world? Less than $900 
million has been obligated of that money; $2.9 billion has been 
sitting unspent for the last year. Are you aware of that? It is 
a fact. That is $2.9 billion of critical military construction 
projects that have not been built, but that money is sitting 
unspent, unobligated, somewhere in the Department of Defense, 
or the Treasury, or OMB [Office of Management and Budget], or 
somewhere. Can you explain why it is more important that that 
money be unspent, sitting unspent, rather than those 
construction projects, including the European Defense 
Initiative programs not going forward, that were deemed to be 
critical in pushing back against Russia's aggression? Can you 
explain that to me?
    Secretary Rapuano. I will pass your request to the 
comptroller.
    Mr. Garamendi. No, this is a policy question and you are 
the policy----
    Secretary Rapuano. I am sorry, Congressman, I don't have 
the status of all those, the funding elements in terms of your 
understanding that they are frozen.
    Mr. Garamendi. It is a fact that $2.9 billion is sitting 
unspent and unobligated.
    Apparently, I am out of time, but I am not out of 
questions.
    You have been participating in a monumental----
    Mrs. Luria. The gentleman's time has expired.
    Mr. Bacon.
    Mr. Bacon. Thank you, Madam Chair.
    I appreciate all three of you being here. It is great to 
see General O'Shaughnessy again, who I served with off and on 
in my Air Force career. So, great to see you here.
    My first question is to Admiral Faller. I appreciate 
hearing the information you have been sharing on Russia's and 
China's investment. So, I won't go down that path, but that was 
where I wanted to go as well.
    But could you tell us a little bit the status of Chile 
right now? I know a few months back there was a lot of violence 
and demonstrations there, and they are a good ally. So, I was 
concerned. Thank you.
    Admiral Faller. They are a good ally, as you mentioned, and 
they are an exporter of security. As we speak, a Chilean 
frigate is deploying with the U.S. Navy aircraft carrier strike 
group to the Asia-Pacific. And this is a demonstration of the 
Chileans' commitment to global security, not just hemispheric 
security. And it is a demonstration of the Chileans' high-end 
capability. There is a lot to learn from working with them.
    Last year, we partnered with Chile and hosted the UNITAS 
Pacific in Chile, the Nation's, in fact, the world's longest-
serving maritime exercise. And Chileans led that exercise and 
they led it capably.
    We are working to do additional partnership with the 
Chileans in cyber and in the land domain. And so, we continue 
to have a strong relation. Earlier this year, unfortunately, 
they lost a C-130. We surged some assets to try to help them do 
the search and rescue, but it was in the horrible conditions of 
the Antarctic.
    Closely looking at the instability, we are very pleased to 
work with our partners that have remained professional.
    Mr. Bacon. Is it starting to calm down?
    Admiral Faller. Well, I think we haven't taken our eye off 
that ball, but we are in constant dialog and sharing 
intelligence with them and helping them.
    Mr. Bacon. There was recently a report, too, of some 
violence in Colombia, where the rebels used to operate. Are we 
still in a good position there in Colombia? Are they doing all 
right with the peace agreement that they have?
    Admiral Faller. Sir, I would fight along with the 
Colombians any day of the week. They are fighters. They are 
professional. They have tough security challenges that they 
have overcome. Plan Colombia was a success.
    Mr. Bacon. Right.
    Admiral Faller. It was a long-term investment. They 
invested $10 for every dollar that other nations invested. They 
have got a lot of challenges. They have got terrorists and 
narcotraffickers.
    Mr. Bacon. So, the recent reports, were they just one-off, 
or was that just--hopefully, not a reoccurrence?
    Admiral Faller. Well, again, we are watching that closely.
    Mr. Bacon. Okay.
    Admiral Faller. They have close to 2 million migrants in 
their country. They are dealing with FARC dissidents. They are 
dealing with narcotraffic, narcoterrorism, and a significant 
challenge there. They are working all these challenges and they 
are continuing to export security. Last year, they trained 
1,500 special force units in Central America to help them get 
after their fight, while still working their security 
challenges at home. So, it is a top priority for us, working 
with Colombia.
    Mr. Bacon. Right. I flew with the Colombian air force about 
a half dozen times, extraordinarily professional. I was 
impressed.
    General O'Shaughnessy, you talked a little bit about our 
ability to detect ICBMs, and we have some capacity to interdict 
them. And you also mentioned it is much harder with the cruise 
missiles and the hypersonic weapons, and that we need new 
capabilities there. How does your budget request, how does it 
get towards this problem? What things are we trying to invest 
in to detect these new threats?
    General O'Shaughnessy. Yes, first, if you will indulge me 
for one second, I will reminisce back to our time and service 
together. And thank you for your great work in the United 
States Air Force and, then, continuing to serve in Congress 
and, then, on this committee to continue to influence national 
security.
    Specific to your question, this is a very difficult 
challenge we are faced with going forward. One of the ways that 
we are really trying to get after it is, working with industry, 
instead of just going after a particular widget and saying, 
``We need a widget to do this,'' to do this one mission set, we 
are actually going with industry and saying, ``Here is our 
challenge.'' We need domain awareness. We need to understand 
what is happening from undersea to space. We need the ability 
to command and control that, and then, we need those defeat 
mechanisms in a holistic system. And by really talking to 
industry and collaborating with industry, we see what is in the 
realm of the possible. And so, we have actually had some 
success there.
    And then, we are taking that into the budget process, 
because of instead of asking, like traditionally, what we do 
within the DOD is asking for a particular system, we are 
actually looking for a system of systems. And so, how do we 
bring that into the acquisition process?
    We have had some success this year of really focusing on 
homeland defense, and that is why this year, 2020, is a year of 
homeland defense, because we now have that traction. Now it is 
time to turn that into actual results, so we can defend our 
Nation.
    Mr. Bacon. Thank you very much. I yield back.
    Mrs. Luria. Mr. Crow.
    Mr. Crow. Thank you, Chairwoman.
    Thank you to all the witnesses and for your continued 
service to the country and your testimony today.
    I understand that the FY20 counterdrug funding has been put 
on hold. It may be cut up to $90 million to pay for U.S. Army 
Corps operating cost to execute border wall construction for 
FY19 projects. Admiral, are any of your counterdrug or drug 
interdiction projects impacted by this hold?
    Admiral Faller. There was a delay in flowing 
counternarcotics funding. That money is now flowing. So, to 
date, we have had no impact to what was programmed for the FY20 
level for our counternarcotics funding.
    Mr. Crow. How long was that delay?
    Admiral Faller. It was several months into the year before 
that money started to flow. The uncertainty really impacted our 
ability to do the kind of long-term management that we needed 
to, but we worked through it and now the money is flowing.
    Mr. Crow. Do you anticipate any cuts for your FY20 planned 
projects?
    Admiral Faller. There have been discussions about cuts. You 
mentioned a figure. To date, we haven't received any cuts, and 
our accounts, we have got a good spend plan based on the 
current amount for the rest of the year.
    Mr. Crow. If there are any reductions in FY21, how will 
that impact your region?
    Admiral Faller. This money, about one-third of all our 
funds for SOUTHCOM are counternarcotics money. They are 
critical for the security of the United States of America. They 
are saving lives. So, reductions in funds are going to be 
something that we are not going to do, and that is going to 
result in some narcotrafficker that is not taken off the 
battlefield.
    Mr. Crow. And for all the witnesses, are any of you 
anticipating, or have you been ordered to create plans, or in 
the process of planning for, additional deployments to the 
southern border?
    General O'Shaughnessy. Not beyond the current support that 
is being provided.
    Mr. Crow. So, as of today, there is no planning for 
additional troop level increases to the southern border?
    General O'Shaughnessy. Not as of today, no.
    Mr. Crow. Okay.
    Admiral Faller. No plans, sir.
    Mr. Crow. Shifting gears just briefly, on the issue of 
Arctic control and the increased pressures in the Arctic, there 
are plans to increase the number of our icebreakers. There have 
been appropriations for both the planning and the start of the 
construction for those icebreakers. So, General O'Shaughnessy, 
starting with you, are the current plans sufficient, in your 
view, over the next 5 years to field the icebreakers that are 
necessary to counter both Russian and Chinese influence in the 
Arctic region?
    General O'Shaughnessy. Well, first, I would applaud the 
effort of the U.S. Coast Guard and the U.S. Navy that has 
supported that procurement of the icebreakers. I have actually 
been on the Polar Star, our icebreaker that is 44 or so years 
old. We need these icebreakers and we need the polar security 
cutters now.
    I would also say that, as the deployment happens, normally 
six of them, at least three heavy, initial deployment is likely 
to Antarctica. And so, we have to look not just at the first 
one that will be operational, but when is the second and third 
one going to be operational, which we will need in the Arctic 
as well. So, from my perspective, I am very pleased that we are 
making progress on this. We had significant funds this year, 
over $500 million applied to it, but we need to continue that 
program and, if anything, we ought to be looking to accelerate 
it.
    Mr. Crow. So, the six, as we understand it, will that be 
sufficient in the long term? Because I know Russia has upwards 
of 20.
    General O'Shaughnessy. Clearly, it is a start. As we work 
closely with the Coast Guard, and especially with the three 
heavy as a minimum, potentially up to six heavy, depending on 
how they end up doing the procurement, it will give us a start. 
But we see diminishing sea ice. More navigation actually 
increases the need for those icebreakers in order to take 
advantage of the Arctic.
    Mr. Crow. Yes. And, Admiral, could you just very briefly 
classify for me, as we talk about the pivot to great power 
competition, a lot of people view that solely as an Indo-
Pacific pivot, but could you just paint the picture for us as 
to the Chinese investments in Central and South America, and 
how you believe that fits in with their overall strategy?
    Admiral Faller. Yes, it is clearly a global view for that 
great power competition. It is playing right out here in our 
neighborhood--the significant increase in foreign direct 
investment, in loans. China is the number one creditor. The 
Chinese trade, I think by the end of this year we will see the 
Chinese as the number one trading partner with the whole 
hemisphere.
    And as I have emphasized, our presence with small units, 
like Joint Task Force Bravo, which is 685 soldiers, sailors, 
Marines, airmen, that is our main maneuver force, along with 
our State partners. That is key to anchoring our positional 
advantage in this hemisphere.
    Mr. Crow. Okay. Thank you.
    Madam Chair, I yield back.
    Mrs. Luria. Thank you.
    And I think that concludes our questions from members of 
the committee.
    Mr. Thornberry and I would both like to thank you very much 
for your participation today and for answering these valuable 
questions that will provide insights into the process as we 
move forward for the NDAA. And thank you again.
    The hearing is adjourned.
    [Whereupon, at 12:19 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 11, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 11, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 11, 2020

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER

    Admiral Faller. We are tracking the concern though, so far, we have 
not seen a direct impact to mission readiness within SOUTHCOM. We 
appreciate the work being done by the Department of Health and Human 
Services and the Office of the Secretary of Defense (OSD) to remedy our 
reliance on Chinese manufacturers. For any further discussion on the 
supply chain, I would refer you to OSD.   [See page 22.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. WALTZ
    General O'Shaughnessy. Although China has expanded its military 
engagement in The Bahamas, the United States remains The Bahamas' 
defense partner of choice. One reason is that USNORTHCOM provides the 
Royal Bahamas Defence Force (RBDF) with approximately $6M in training 
and assistance annually. By contrast, the Chinese have made occasional 
security assistance contributions to the RBDF at significantly smaller 
amounts than the United States. Furthermore, our partnership also 
extends beyond traditional military-to-military cooperation, as 
demonstrated in the aftermath of Hurricane Dorian in 2019, when 
USNORTHCOM was proud to lead the Department of Defense portion of the 
relief effort in support of the United States Agency for International 
Development (USAID) in The Bahamas. Bahamian senior leaders prefer U.S. 
cooperation and investment, and USNORTHCOM uses all available 
authorities to support our RBDF partners. And finally, the RBDF is a 
willing partner and has made significant investments to modernize its 
capabilities. We are collaborating on a bi-national security 
cooperation framework to improve the RBDF's ability to detect, 
identify, track and interdict illicit trafficking in both its territory 
and the approaches to the United States. The Bahamas also hosts the 
Atlantic Undersea Test and Evaluation Center (AUTEC), which is a 
sophisticated U.S. Navy facility that tests and certifies the undersea 
warfare capabilities of submarines, vessels, and aircraft. Given The 
Bahamas' proximity to the U.S. mainland (50 miles offshore), Bahamian 
leadership in regional security matters, and their hosting of AUTEC, 
the USNORTHCOM relationship with the RBDF is crucial to the cooperative 
defense of the United States.   [See page 42.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 11, 2020

=======================================================================
      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The military has done a commendable job of training 
our counterparts in the SOUTHCOM region. One of the best examples is 
the Colombian military. The Colombian forces are now some of the best 
in the world and travel the globe training other militaries. Admiral 
Faller, to what do you attribute the success of the Colombian military 
and how can we replicate that with other partners in the region?
    Admiral Faller. The Colombian military is SOUTHCOM's most willing 
and capable strategic partner in the region due largely to decades of 
security investment by both the U.S. and Colombia. Colombia receives 
the majority of regional U.S. Title 10 and Title 22 funding. More 
importantly, the Government of Colombia also invests heavily, spending 
3.4% of its GDP on defense resulting in a multiplier effect on U.S.-
capacity building efforts. The Colombian military's exceptionalism 
comes from recognition in the end of the last century that it was 
facing an enemy that could only be defeated by a military committed to 
professionalism and embracing human rights. Recognizing that survival 
required modernization, Colombia partnered with the U.S. in Plan 
Colombia, a multiyear, whole-of-government strategy to defeat the 
narco-terrorist insurgency that threatened to destroy the country. 
Colombia has spent nearly $38 million in national funds over the last 
twenty years in addition to significant U.S. investment to send its 
officers and noncommissioned officers to U.S. International 
Professional Military Education (I-PME) courses and training, 
fundamental to the success of modernization. Additionally, Colombia has 
expanded its participation and leadership in global and regional 
multinational exercises such as Rim of the Pacific naval exercise 
(RIMPAC), PANAMAX, and UNITAS. Attesting to the wide acceptance and 
recognition of their exceptional competence and interoperability, 
Colombian officers serve in numerous key leadership positions in U.S. 
military organizations. To replicate Colombian success, we must seek 
opportunities to work with willing nations when they look for a 
security partner, while understanding their unique challenges and 
capabilities. To do so effectively, we must apply sustained levels of 
resources, such as International Military Education and Training 
(IMET), Foreign Military Financing (FMF), and Sec 333 funding--and have 
the strategic patience to build these long-term capabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Using counter-UAS equipment can pose both safety and 
operational issues for authorized airspace users in the vicinity, due 
in large part to the immaturity or lack of readiness of counter-UAS 
technologies in civilian airspace. Can you comment on this issue and 
the challenges presented? How does DOD ensure its impacts on authorized 
civilian airspace users and air navigation equipment are minimal?
    Secretary Rapuano. The Department of Defense (DOD) manages risk of 
collateral C-UAS effects through activities at the national and local 
levels. Nationally, DOD has partnered closely with the Federal Aviation 
Administration (FAA) to develop jointly processes and procedures to 
identify and mitigate the potential collateral effects of DOD C-UAS 
actions on national airspace system users. These processes and 
procedures include pre-employment testing of C-UAS technologies for 
collateral impacts, coordination with the FAA prior to emplacement of 
C-UAS systems within the United States, and a rapid notification system 
by which DOD C-UAS operators inform local Air Traffic Controllers of 
the use of C-UAS technologies. At the local level, or installation 
level, risks associated with C-UAS employment are further mitigated 
through FAA-administered airspace management measures and DOD 
installation-level risk management activities, including training, 
posting ``No Drone'' signage, and partnerships with local law 
enforcement agencies and UAS user groups.
    Mr. Larsen. Several other Federal departments or agencies would 
like authority similar to DOD to counter UAS in the United States. What 
lessons learned can you provide Congress for when it considers future 
counter-UAS proposals?
    Secretary Rapuano. The Department has proceeded cautiously and 
deliberately in seeking and implementing its C-UAS authorities, in 
close partnership with the FAA, and other key Federal departments and 
agencies, including the Federal Communications Commission and the 
Department of Commerce's National Telecommunications and Information 
Administration. DOD has similarly proceeded with careful regard for the 
impact of these technologies on legitimate users of both the national 
airspace system and the electro-magnetic spectrum. Balancing the 
emergent threat to DOD facilities and assets against the potential 
collateral effects of C-UAS technologies, DOD has used a risk-based 
approach and open communication and coordination with the FAA and other 
key stakeholders, to strike the appropriate balance between facility 
and asset security and aviation safety. Recent experience has 
demonstrated that the security environment can rapidly change in 
unexpected ways. Authorizing the Secretary of the Defense, in 
consultation with the Secretary of Transportation, to designate 
facilities and assets as ``covered assets'' temporarily on the basis of 
emergent indicators that they are at high risk for unlawful unmanned 
aircraft activity, would provide DOD the flexibility to respond to 
unanticipated events in a safe and effective manner.
    Mr. Larsen. Can you please discuss the training for DOD personnel 
currently operating counter-UAS systems in the United States?
    Secretary Rapuano. Training is essential to DOD's safe operation of 
C-UAS technologies and DOD's efforts to preserve the safety of the 
national airspace system. In implementing 10 U.S.C. 130i, the Military 
Services and other DOD Components each require installation-level 
training in the use of C-UAS technologies. Installation commanders are 
required to verify that the required training program is in place when 
they request approval to operate C-UAS equipment. The required training 
programs and specific requests to operate C-UAS equipment are reviewed 
within DOD and by the FAA. The Defense Threat Reduction Agency (DTRA) 
has contributed by providing hands-on training to units during site 
visits and have made web-based distance learning available.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. General O'Shaughnessy, you mention the cancellation of 
RKV and the effects that has had on your command from the perspective 
of the warfighter.
    Do you agree with the assessment that, while we can be confident in 
our current GMD posture to counter a North Korean threat for the next 5 
to 6 years, at the rate the DPRK is developing their ICBM capabilities 
we must begin assuming increased risk around 2025 and beyond?
    There are many internal discussions taking place between Congress, 
industry, and the Department on how we can shore up our homeland 
missile defenses prior to the NGI coming online. In your testimony, you 
called yourself ``a strong advocate for bringing a layered capability 
on board for the warfighter well before NGI is fielded.''
    What do you mean by that: are you talking about an SM-3IIA/THAAD-ER 
under-layer, an interim GBI gap-filler that leverages designs and 
concepts that could be delivered by industry earlier than NGI, or ``all 
of the above''?
    General O'Shaughnessy. I am confident in our ability to defend 
against a North Korean ICBM threat today, but their capabilities 
continue to advance. USNORTHCOM is working with the Missile Defense 
Agency and other organizations to develop the Strategic Homeland 
Integrated Ecosystem for Layered Defense (SHIELD) to provide defense 
against ballistic missiles, cruise missiles, and hypersonics as soon as 
possible. This layered homeland defense will consist of multiple 
systems that complement, not replace, the Ground-based Midcourse 
Defense system and its current inventory of ground-based interceptors. 
This layered system is critical to maintaining our ability to 
adequately defend the United States even after the fielding of the Next 
Generation Interceptor. As we develop the SHIELD capability to provide 
defense against ballistic missiles, cruise missiles, and hypersonics, 
we will look at using Aegis Afloat and the current THAAD capability in 
some capacity if required to deploy an immediate capability. This 
solution is not ideal as it provides limited coverage and takes high-
demand capabilities from other regional combatant commanders. In the 
longer term, a purpose-built system like Aegis Ashore may be part of a 
permanent solution that will not only provide an interim gap-filler, 
but also provide a valuable capability into the future.
    Mr. Lamborn. Admiral Faller, in your testimony, you mention that 
Iran is able to leverage its Hezbollah proxy forces to reach into the 
Americas and has done so in the past.
    Can you please describe for us the nature of Iranian activities in 
your AOR and the Iranian regime's relationship with the Maduro regime?
    Can you also describe for us the kinds of capabilities the Iranians 
are able to bring to bear leveraging these forces and relationships?
    Admiral Faller. In Latin America, Iran primarily seeks to develop 
diplomatic and economic partnerships to alleviate the pressure caused 
by U.S. sanctions. Over the last year, Tehran's relationship with the 
Maduro regime remained nominal, with Iran focused on sustaining access 
to Venezuela's natural resources and gaining a return on previous 
investments. In April, we identified a noted increase in Iran's Islamic 
Revolutionary Guard Corps-associated Mahan Air scheduling non-
commercial flights into Venezuela's Paraguana Peninsula. These flights 
likely brought needed Iranian-supported oil infrastructure and repair 
equipment to Venezuela's largest petroleum refinery complex in exchange 
for gold, circumventing existing sanctions on Iran and the Maduro 
regime. In late May, Iran shipped gasoline to Venezuela, in 
contravention to U.S. sanctions. Such actions are indicative of the 
evolving relationship between Venezuela and Iran. Iran's partner, 
Hizballah, maintains access to a large Lebanese diaspora and 
sympathetic, Iran shipped expatriate community in Latin America that it 
seeks to exploit by garnering economic and political support for its 
social services and welfare programs in Lebanon. Hizballah's 
relationship with the Maduro regime remains largely symbolic. While we 
have observed Iran and Hizballah's historic targeting in Panama and the 
Andean region, we have no current or credible information indicating 
the Iran Threat Network has the intent to attack U.S. forces deployed 
forward or our partners in the SOUTHCOM area of responsibility.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. The national supply of antibiotics, vaccines and 
many other drugs depends on Chinese manufacturers--Chinese 
pharmaceutical producers provide 97 percent of the U.S. antibiotic 
market. How would U.S. national security be impacted if China decided 
to withhold antibiotics from the U.S. market during conflict?
    Secretary Rapuano. U.S. national security would be negatively 
impacted if a conflict with China emerged. As with many other areas, 
the antibiotic market would be adversely impacted. However, as we have 
seen with the challenges posed by COVID-19, the United States has the 
human and physical capital to overcome or at least minimize many of the 
challenges a conflict with China would present.
    Mrs. Hartzler. The national supply of antibiotics, vaccines and 
many other drugs depends on Chinese manufacturers--Chinese 
pharmaceutical producers provide 97 percent of the U.S. antibiotic 
market. How would U.S. national security be impacted if China decided 
to withhold antibiotics from the U.S. market during conflict?
    General O'Shaughnessy. I defer to the Department of Homeland 
Security and the Department of Health and Human Services as the lead 
federal agencies for assessing the potential impacts of the scenario 
described above.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. How can an active littoral constabulary presence by the 
U.S. Coast Guard in partnership with cooperative nations limit the 
freedom of movement enjoyed by transnational and transregional threat 
networks?
    Admiral Faller. Pushing out our borders over 1,500 nautical miles 
offshore is critical to confronting drug cartels and enhancing our 
national security. Attacking the cartels' profit sources in the 
maritime transit zones, where they are most vulnerable, is part of a 
holistic approach to mitigate their influence enabled by cocaine 
smuggling. At-sea interdictions of pure cocaine are the most effective 
way to limit cartels from trafficking their entire spectrum of illicit 
products. Due to the US Coast Guard's law enforcement authorities, an 
active and persistent presence of US Coast Guard force packages -which 
include a cutter/vessel, helicopter, and boarding team- is central to 
US efforts combating maritime smuggling by transnational criminal 
organizations. Drugs and other contraband detected by DOD cannot 
legally be interdicted without US Coast Guard or partner nation 
participation. Partner nations have increasingly contributed to 
interdictions, currently participating in over 50% of interdictions--up 
from 40% last year. The training and interoperability of partner nation 
forces is creating a significant force multiplier for this effort. 
There are more well-trained response capabilities and personnel to 
bring to the effort, ones deeply familiar with their territorial waters 
and the littorals used by criminal organizations.These organizations 
exploit any lack of presence to move contraband. The littorals are 
vital to their efforts as their contraband must be brought ashore for 
further distribution. A persistent US Navy and Coast Guard presence, 
coupled with increasing partner nation participation and maritime 
coverage, would directly and significantly hinder these networks' 
ability to move and/or land contraband unchallenged.
    Mr. Scott. What would a day in the life of SOUTHCOM be without the 
United States Coast Guard?
    Admiral Faller. The Coast Guard provides more than 4,000 hours of 
support by maritime patrol aircraft and 2,000 major cutter days to 
SOUTHCOM each year. The counter drug mission is an overwhelmingly 
maritime one due to traffickers harnessing the economic efficiency of 
large drug shipments by sea.The Coast Guard's specialized capabilities, 
unique authorities, and strong international relationships enable the 
U.S. to build partner-nation capacity and model rules-based values and 
behaviors, strengthening regional stability and enhance economic 
prosperity. As a member of the armed services, law enforcement, and 
intelligence communities, the Coast Guard is uniquely suited to operate 
with, and provide capability and capacity development programs to 
Central and South American nations. Coast Guard expertise specifically 
delivered through Mobile Training Teams and Technical Assistance Field 
Teams supports security cooperation programs and engagement activities 
in the region to reduce the production and trafficking of illicit 
drugs. Without these interactions, our efforts to build our partners' 
capabilities to serve as force multipliers to protect the region and 
our homeland would diminish. SOUTHCOM is the only combatant Command 
with a Coast Guard officer serving as the Director of Operations. This 
is as compelling a detail as any showing that the Coast Guard is 
central to SOUTHCOM mission success.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. How many troops are currently operating at the U.S. 
Southern Border and what activities are they doing? What activity are 
you seeing at the border from 1) China, 2) Russia, 3) North Korea, 4) 
Iran, 5) ISIS and 6) al-Qaida?
    General O'Shaughnessy. As of 16 June 2020, there were 2,612 Title 
10 forces and 2,451 Title 32 forces supporting the southwest border 
mission. The Department of Defense is assisting U.S. Customs and Border 
Protection in four key areas: Detection and Monitoring (operation of 
157 mobile surveillance cameras), Operational Support (such as 
maintenance transport operations, heavy equipment operations, and 
crisis response force), Infrastructure Support (such as fence repair), 
and Aviation Support (such as light and medium rotary wing, fixed wing, 
and unmanned aircraft system support). Additionally, there are 599 
Title 10 forces who are operating 60 mobile surveillance camera 
positions in support of COVID-19 response along the southwest border. 
USNORTHCOM is in constant communication with national intelligence and 
law enforcement agencies to ensure our requirements for intelligence 
are met and that any adversary activity comes to our attention 
immediately. The predominant activity I see from China in Mexico is 
economic investment, which includes an industrial park near the border 
in northeast Mexico, but I have seen no indications of Chinese 
malicious activity along our borders. Likewise, beyond legacy Russian 
foreign military sales activity, I am aware of no Russian, North Korean 
or Iranian activity of concern along our borders, to include any 
reporting that adversary foreign intelligence entities focus their 
activities at our borders, although they may have plans in place for 
border crossings during a crisis or conflict. Finally, I have seen no 
evidence that ISIS or al-Qa'ida maintains a presence in Mexico or 
Canada, or that these organizations are directing operatives to transit 
through Mexico or Canada and across our borders to infiltrate or attack 
the homeland. I am well supported through constant communication with 
national intelligence and law enforcement agencies to ensure I am made 
aware of any such activity. Regarding this latter issue, the COVID-19 
crisis has put a damper on migration--stricter border controls and less 
pull factors--probably lessening the potential for adversary 
exploitation. Nonetheless, I am watchful for any signs of a return to 
large-scale migration and the attendant vulnerabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. ABRAHAM
    Dr. Abraham. Admiral Faller, recently you told the Senate Armed 
Services Committee that only about 20% of your ISR needs are being met 
in SOUTHCOM. What are somethings we on the committee can do to help you 
meet those needs?
    Following up on that, it is my understanding that you also employ 
some non-traditional ISR methods in SOUTHCOM, would you be able to 
speak to what some of these methods or platforms are, and would you be 
open to looking at more non-traditional ways to provide SOUTHCOM with 
ISR?
    Admiral Faller. Congress has been very supportive of SOUTHCOM by 
providing resources that allow us to mitigate our ISR gaps with non-
traditional, innovative, and efficient solutions. A key mitigation to 
SOUTHCOM's shortfall for overland ISR is our use of contracted airborne 
ISR platforms (multi-INT B200's and FALCON-I FOPEN), which as stated in 
our FY21 Unfunded Requirements List, has an $8-9M shortfall every 
fiscal year. Additional funding for the acquisition and operation of 
these critical platforms would greatly assist in minimizing large gaps 
in intelligence collection time, space, and capability. These assets 
allow SOUTHCOM to focus intelligence collection efforts in multiple 
locations around the SOUTHCOM area of responsibility in support of US 
Federal Law Enforcement Agencies and partner nation efforts. These 
assets have already assisted us in finding over 20 drug processing labs 
during the first 30 days of our Enhanced Counter-Narcotics Operation. 
Also an FY21 unfunded requirement, the Technical Network Analysis Cell 
(TNAC) continues to reap benefits during the Enhanced Counter-Narcotics 
Operation. In conjunction with our European partners, we seized 8 MT 
of cocaine in the month of April from TNAC-provided information. Joint 
Interagency Task Force-South (JIATF-S), in partnership with US Federal 
Law Enforcement entities, has proven that this capability can identify 
illegal shipping container movements and illuminate the associated 
threat networks. Providing additional funding to the TNAC will reap a 
significant return on investment and prevent substantial amounts of 
illicit narcotics from entering directly into the homeland. If funding 
is made available for these and our other non-traditional FY21 Unfunded 
Requirements List items--the Commercial Data Integration Cells, HUMINT 
through the Cyber Domain, and UAS support to the MMSV--we can expect to 
see a return on investment.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Waltz. I am pleased to see the administration increasing oil 
sanctions against the regime in Venezuela, including targeting third-
country companies dealing in Venezuelan oil. News reports suggest those 
companies would rather divest from Venezuela than challenge U.S. 
sanctions.
    However, this strategy targets the regime's licit activity only. As 
the economic pressure mounts, we can surely expect Maduro to 
increasingly rely on illicit activity such as drug trafficking and 
dirty deals involving gold to generate hard currency. Are you seeing an 
uptick in Venezuelan involvement in this kind of transnational 
organized crime? What do you see as SOUTHCOM's role in countering this 
illicit activity?
    Admiral Faller. Due to heavy economic sanctions on Venezuela, U.S. 
Southern Command continues to identify and counter the illicit activity 
conducted by the Maduro Regime. There has been a year-on-year increase 
of transnational organized crime activity emanating from Venezuela. 
Apure and Zulia states remain hotbeds for illicit flights departing 
Venezuela with cocaine bound for Central America, Mexico, and 
eventually the U.S. In 2019, the number of suspected illicit flights 
departing Venezuela increased significantly, which was the highest 
number of suspected illicit flights since 2009. The Orinoco River, 
which acts as a border with Colombia and runs through Venezuela, is a 
key corridor for drug trafficking. Additionally, Venezuela's northern 
coastline serves as a key departure zone, with traffickers conducting 
at sea drug transfers in Venezuela's territorial waters. All of this is 
possible because the Maduro regime's armed forces cooperate with drug 
traffickers and terrorist organizations such as the ELN and FARC 
dissidents. U.S. Southern Command supports Partner Nations, Law 
Enforcement, and Interagency partners' efforts to counter illegal 
activity conducted by Venezuela. Recent indictments by the Drug 
Enforcement Agency (DEA) and sanctions by the Office of Foreign Assets 
Control (OFAC) are examples of actions to counter the illicit activity 
in Venezuela. Specifically, U.S. Southern Command provides analytic 
support to Law Enforcement investigations and to OFAC in support of 
sanctions on businesses and individuals involved in drug trafficking 
and money laundering activity to disrupt or deny financial benefit to 
the Maduro Regime.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GOLDEN
    Mr Golden. The 2nd Fleet was reestablished in 2018 to better 
establish a U.S. presence in the Atlantic and Arctic, and it is 
encouraging to see that the 2nd Fleet was declared Fully Operational 
Capable in December 2019. Given the challenging maritime environment of 
the Arctic, what unique capabilities must the 2nd fleet possess to be 
effective in this Area of Operations, to include ballistic missile 
defense, anti-submarine warfare, strategic land strike, anti-aircraft, 
and anti-ship? Additionally, how do the capabilities of the Flight III 
DDG-51 contribute to 2nd Fleet operations and overall U.S. presence in 
the Arctic?
    General O'Shaughnessy. I am encouraged that 2nd Fleet is fully 
operational and that there is increased focus on fleet operations in 
the USNORTHCOM Area of Responsibility. Increased presence in the Arctic 
is a key element of USNORTHCOM's homeland defense mission. Recent U.S. 
Navy deployments to the North Atlantic and Arctic demonstrated we must 
address and mitigate operational challenges posed by the harsh Arctic 
operating environment and lack of infrastructure in the northern 
reaches of the North Atlantic. Periodic fleet deployments to the Arctic 
build and maintain proficiency across the full spectrum of maritime 
missions and play a vital role in both deterrence and homeland defense. 
I am confident the Flight III DDG-51 will play an important role in 
supporting USNORTHCOM's homeland defense mission; however, for 
information regarding the ship's specific capabilities, I defer to the 
U.S. Navy.

                                  [all]
</pre></body></html>
